<html>
<title> - STEM IN ACTION: INSPIRING THE SCIENCE AND ENGINEERING WORKFORCE OF TOMORROW</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                            STEM IN ACTION:

                       INSPIRING THE SCIENCE AND

                   ENGINEERING WORKFORCE OF TOMORROW
=======================================================================



                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                      TUESDAY, SEPTEMBER 13, 2011

                               __________

                           Serial No. 112-34

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
68-228                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               GABRIELLE GIFFORDS, Arizona
W. TODD AKIN, Missouri               DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              MARCIA L. FUDGE, Ohio
MICHAEL T. McCAUL, Texas             BEN R. LUJAN, New Mexico
PAUL C. BROUN, Georgia               PAUL D. TONKO, New York
SANDY ADAMS, Florida                 JERRY McNERNEY, California
BENJAMIN QUAYLE, Arizona             JOHN P. SARBANES, Maryland
CHARLES J. ``CHUCK'' FLEISCHMANN,    TERRI A. SEWELL, Alabama
    Tennessee                        FREDERICA S. WILSON, Florida
E. SCOTT RIGELL, Virginia            HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                            C O N T E N T S

                      Tuesday, September 13, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     7
    Written Statement............................................     8

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................    10

                               Witnesses:

Mr. Tony Norman, President and CEO of Innovation First 
  International, Inc.
    Oral Statement...............................................    13
    Written Statement............................................    14

Mrs. Nancy Conrad, Chairman and Founder of the Conrad Foundation
    Oral Statement...............................................    44
    Written Statement............................................    46

Mr. Michael D. Gallagher, President and CEO of Entertainment 
  Software Association
    Oral Statement...............................................    49
    Written Statement............................................    50

Discussion.......................................................      

             Appendix I: Answers to Post-Hearing Questions

Mr. Tony Norman, President and CEO of Innovation First 
  International, Inc.............................................    82

Mrs. Nancy Conrad, Chairman and Founder of the Conrad Foundation.    84

Mr. Michael D. Gallagher, President and CEO of Entertainment 
  Software Association...........................................    85


                            STEM IN ACTION:


                       INSPIRING THE SCIENCE AND


                   ENGINEERING WORKFORCE OF TOMORROW

                              ----------                              


                      TUESDAY, SEPTEMBER 13, 2011

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:04 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph Hall 
[Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                            STEM in Action:

                       Inspiring the Science and

                   Engineering Workforce of Tomorrow

                      tuesday, september 13, 2011
                         10:00 a.m.--12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Tuesday, September 13, 2011, the Committee on Science, Space, 
and Technology will hold the second in a series of hearings to 
highlight Science, Technology, Engineering, and Math (STEM) education 
activities across the Nation, their role in inspiring and educating 
future generations, and their contribution to our future economic 
prosperity. The purpose of this hearing, STEM Education in Action: 
Inspiring the Science and Engineering Workforce of Tomorrow, is to 
showcase a variety of public/private partnerships and initiatives that 
are successfully inspiring the future STEM workforce.

2. Witnesses

    <bullet>  Mr. Tony Norman, President and CEO of Innovation First 
International, Inc.

    <bullet>  Mrs. Nancy Conrad, Chairman and Founder of the Conrad 
Foundation

    <bullet>  Mr. Michael D. Gallagher, President and CEO of 
Entertainment Software Association

3. Overview

    <bullet>  In the U.S, student mastery of STEM subjects is essential 
for 21st century jobs. Finding ways to improve STEM education 
activities beyond the scope of the federal government, including using 
best practices derived from non-federal sources, is key to the future 
prosperity of the Nation.

    <bullet>  The Administration's FY 12 Budget request includes $3.4 
billion in spending for STEM education efforts.

    <bullet>  A growing number of partnerships between industry, 
foundations, non-profits, and local and regional governments recognize 
the importance of having an educated and skilled STEM workforce and are 
creatively motivating and inspiring future generations of scientists 
and engineers with little or no federal funding.

    <bullet>  Innovation First International began by producing 
electronics for autonomous mobile ground robots and is now a leader in 
educational and competitive robotics products, and a growing developer 
of consumer robotics toys. Through Innovation First International, VEX 
Robotics motivates students in the classroom with its VEX Robotics 
Classroom competition as well as a number of other competitions around 
the Nation.

    <bullet>  The Conrad Foundation is a non-profit, 501(c) (3) 
organization built upon astronaut Charles ``Pete'' Conrad's history of 
innovation and entrepreneurship. The Spirit of Innovation Awards, a 
competition founded by the Conrad Foundation, challenges teams of high 
school students to create innovative products to solve 21st century, 
real-world problems.

    <bullet>  The Entertainment Software Association (ESA) is the U.S. 
association dedicated to serving the needs of companies that publish 
computer and video games for video game consoles, personal computers, 
and the Internet. ESA is one of the annual sponsors of the STEM Video 
Game Challenge which aims to motivate interest in STEM learning among 
America's youth by tapping into students' desire to play and make video 
games.

4. Background

STEM Education and the Federal Government

    A consensus exists that improving STEM education throughout the 
Nation is a necessary condition for preserving our capacity for 
innovation and discovery and for ensuring U.S. economic strength and 
competitiveness in the international marketplace of the 21st century. 
The National Academies Rising Above the Gathering Storm report placed 
major emphasis on the need to improve STEM education and made its top 
priority increasing the number of highly qualified STEM teachers. This 
recommendation was embraced by the House Science, Space, and Technology 
Committee following the issuance of the report and was included in the 
2007 America COMPETES Act. The 2010 America COMPETES Reauthorization 
Act continues this priority.
    Beyond activities authorized in America COMPETES, President Obama 
has called for a new effort to prepare 100,000 STEM teachers with 
strong teaching skills and deep content knowledge over the next decade. 
As a component of achieving this goal, the FY 12 Budget Request 
proposes an investment of $100 million through the Department of 
Education and the National Science Foundation (NSF) to prepare 
effective STEM teachers for classrooms across America. This proposal 
also responds to a recommendation by the President's Council of 
Advisors on Science and Technology (PCAST) to prepare and inspire 
America's students in STEM. \1\
---------------------------------------------------------------------------
    \1\ White House Office of Science and Technology Policy, Winning 
the Race to Educate Our Children, STEM Education in the 2012 Budget, 
p.1
---------------------------------------------------------------------------
    In addition, the FY 12 Budget Request proposes $90 million for the 
creation of an Advanced Research Projects Agency--Education (ARPA-ED) 
with the mission of driving transformational improvement in education 
technology. \2\
---------------------------------------------------------------------------
    \2\ White House Office of Science and Technology Policy, Winning 
the Race to Educate Our Children, STEM Education in the 2012 Budget, 
p.1
---------------------------------------------------------------------------
    The President's new ``Educate to Innovate'' campaign leverages 
federal resources with over $700 million in private-sector resources. 
The goals of the program are to increase STEM literacy so that all 
students can learn deeply and think critically in science, math, 
engineering, and technology; move American students from the middle of 
the pack to the top in the next decade; and expand STEM education and 
career opportunities for underrepresented groups, including women and 
girls.
    With specific regard to K-12 STEM education funding beyond what has 
already been identified, the FY 12 Budget Request calls for $206 
million for the Department of Education's proposed Effective Teaching 
and Learning in STEM program; a $60 million (28 percent) increase for 
NASA's K-12 education programs; $300 million for an ``Investing in 
Innovation'' program (expansion of a Department of Education American 
Reinvestment and Recovery Act program); and $185 million for a new 
Presidential Teaching Fellowship program.
    In total, the FY 12 Budget Request devotes $3.4 billion to STEM 
education programs across the federal government. \3\ The 2010 America 
COMPETES Reauthorization Act called for the creation of a National 
Science Technology Council (NSTC) Committee on STEM Education to 
coordinate federal STEM investments. The first-year tasks of the 
Committee are to create an inventory of federal STEM education 
activities and develop a five-year strategic federal STEM education 
plan. The inventory, as well as a similar Government Accountability 
Office (GAO) survey requested by the Committee on Education and 
Workforce, is currently underway and results are expected before next 
year.
---------------------------------------------------------------------------
    \3\ White House Office of Science and Technology Policy, 
Innovation, Education, and Infrastructure: Science, Technology, STEM 
Education, and 21st Century Infrastructure in the 2012 Budget, p. 2.
---------------------------------------------------------------------------
    In the 112th Congress, the Science, Space, and Technology Committee 
will continue to hold oversight hearings and briefings on STEM 
education activities across the federal government and will closely 
monitor the scope and findings of both the NSTC and the GAO federal 
STEM education inventories.

Public-Private Partnerships and STEM Education
    In the U.S, student mastery of STEM subjects is essential for 21st 
century jobs. As other nations continue to gain ground in preparing 
their students in these critical fields, the U.S. must continue to 
explore a variety of ways to inspire future generations. Finding ways 
to improve STEM education activities beyond the scope of the federal 
government, including using best practices derived from non-federal 
sources, is key to the future prosperity of the Nation.
    A growing number of partnerships between industry, foundations, 
non-profits, and local and regional governments recognize the 
importance of having an educated and skilled STEM workforce and are 
creatively motivating and inspiring future generations of scientists 
and engineers with little or no federal funding. Such partnerships can 
provide alternative options for education activities outside the scope 
of public financing and delivery. When designed, implemented and run 
effectively, a successful partnership can increase efficiency and 
choice and expand access to educational activities not necessarily 
found in the classroom. Oftentimes, public-private partnerships allow 
state and local governments to leverage the specialized skills offered 
by certain private organizations. Likewise, industry seeks a 
substantial return on its investment with a highly skilled, highly 
motivated workforce.

Innovation First International and Vex Robotics Competition
    Innovation First International began by producing electronics for 
autonomous mobile ground robots and is now a leader in educational and 
competitive robotics products, and a growing developer of consumer 
robotics toys. Incorporated in 1996, Innovation First International is 
a privately held corporation that was founded on the belief that 
innovation is necessary very early in the design process to produce 
simple and elegant product designs.
    Through Innovation First International, the VEX Robotics Design 
System is the leading classroom robotics platform designed to nurture 
creative advancement in robotics and knowledge of science, technology, 
engineering and math (STEM) education. The VEX platform is expanding 
rapidly and can be found in middle schools, high schools and university 
labs around the globe. VEX Education works to help schools focus on 
practical, affordable and accessible ways of delivering dynamic hands-
on STEM educational experiences to as many students as possible. VEX 
addresses current educational and societal needs by its mixing of 
competition and the real-world applications of mathematics and science 
concepts through the engineering design process.
    VEX Robotics \4\ has found a way to motivate students in the 
classroom with its VEX Robotics Classroom competition. The co-
curricular program is specifically tailored to bring robotics 
competition into the classroom. Robotics can provide an engaging way to 
integrate all facets of STEM education into the classroom, and head-to-
head competition is a natural way to capture students' attention. The 
VEX Robotics Competition is the largest and fastest growing middle and 
high school robotics program globally with more than 3,500 teams from 
20 countries competing in more than 250 tournaments worldwide. In the 
U.S., VEX Robotics Competition events are held in numerous states. The 
Technology Student Association (TSA) and VEX have also partnered to 
spread the word about STEM education and competition. There are 
currently three available TSA VEX competitions around the country.
---------------------------------------------------------------------------
    \4\ http://www.vexrobotics.com/competition
---------------------------------------------------------------------------
    Innovation First and Vex Robotics partners include the REC 
Foundation, Autodesk, NASA, BEST, Project Lead The Way, Northrop 
Grumman, Technology Student Association (TSA), SkillsUSA, EMC 
Corporation, Carnegie Mellon University, Intelitek, Microchip, the 
United States Coast Guard Academy, iD Tech Camps, Automation Direct and 
the CREATE Foundation.

The Conrad Foundation and the Spirit of Innovation Awards
    The Conrad Foundation is a non-profit, 501(c) (3) organization 
built upon astronaut Charles ``Pete'' Conrad's history of innovation 
and entrepreneurship. His legacy continues through the Conrad 
Foundation's programs that combine science, education, and 
entrepreneurship in a revolutionary model of incentivized competition.
    The Spirit of Innovation Awards \5\, a competition founded by the 
Conrad Foundation, challenges teams of high school students to create 
innovative products using science, technology, and entrepreneurship to 
solve 21st century, real-world problems. Eligible students may compete 
on teams in any of three challenge categories: aerospace exploration, 
clean energy, or cybersecurity.
---------------------------------------------------------------------------
    \5\ http://www.conradawards.org/competition
---------------------------------------------------------------------------
    In each category, students create a team with a maximum number of 
five students, find and consult a mentor in the community to help 
provide expert guidance and feedback, and create a proposal. After 
judging, each team is matched with a set of three mentors who are 
experts in the field and with whom they collaborate. Each team must 
then create a next step plan video including an executive summary, 
budget, and timeline. The public then votes on each team in a people's 
choice voting process. Each winning team is recognized as Pete Conrad 
Scholars for that year. Winners receive a $5000 cash grant to continue 
the development of their product as outlined in their Next Step Plan. 
Finalists then have the chance to attend the Innovation Summit which is 
the culmination of the Conrad Foundation's Spirit of Innovation Awards 
program and is the launch pad for breakthrough technologies from high 
school innovators. Leading entrepreneurs, government officials, and 
scientists join the top young innovators and their teachers in a 
collaborative, social forum to help build the progressive technologies 
and the next-generation workforce of the 21st century.
    The Conrad Foundation, through the Spirit of Innovation Awards, 
attempts to create a collaborative community focused on scientific 
innovation, education, and entrepreneurship. The program creates life-
long opportunities for all students and teachers participating in the 
program. The ``Portal'' was created to provide an opportunity to help 
teams with market potential achieve commercialization. It serves as an 
advisory group to the team and provides intellectual property, legal, 
business, and technical guidance. It is not limited to just the winners 
of the competition. Past winners and finalists have formed an Alumni 
Committee to help increase the exposure of and opportunities for all 
students participating in the program. As a result, students are 
provided a life-long, collaborative community of support.
    The Conrad Foundation partners include Lockheed Martin, PepsiCo, 
Kraft Foods, American Institute of Aeronautics and Astronautics, 
American Society for Nutrition, the William James Foundation, NASA, 
National Institute of Health, Sigma Xi, museums and science centers, 
Popular Science Magazine and Space Ref.

Entertainment Software Association
    The Entertainment Software Association (ESA) is the U.S. 
association exclusively dedicated to serving the business and public 
affairs needs of companies that publish computer and video games for 
video game consoles, personal computers, and the Internet.
    Video games are no longer simply a form of entertainment for 
children and young adults. The industry, its customers, and its 
technology have significantly advanced in the past three decades. 
Entertainment software is now one of the fastest growing industries in 
the U.S. economy, and video games are driving technological and 
societal advancements that serve gamers and non-gamers alike.
    Educators are increasingly recognizing the impact of entertainment 
software and utilizing games as a teaching device in a growing number 
of classrooms and business settings. In doing so, they are embracing 
the cultural and technological shifts of the 21st century and expanding 
the use of a favorite leisure activity, computer and video games, into 
a critical and still-emerging educational resource. More than just 
play, entertainment software is now being used to impart knowledge, 
develop life skills and reinforce positive habits in students of all 
ages. In addition to being a great way to keep students engaged, 
researchers have found that video games have real potential as next-
generation learning tools. Games use new technologies to incorporate 
principles crucial to human cognitive learning.
    The ESA is working in cooperation with the Information Technology 
Industry Council (ITI), Sony Computer Entertainment America (SCEA), 
Microsoft Corporation, and the MacArthur Foundation to harness the 
excitement surrounding computer and video games through a series of 
STEM-related video game design competitions.
    One such competition is the National STEM Video Game Challenge, 
sponsored by the ESA, Microsoft, and the AMD Foundation, in partnership 
with the Joan Ganz Cooney Center at Sesame Workshop and E-Line Media. 
This competition was partly inspired by the White House Educate to 
Innovate campaign. The first National STEM Video Game Challenge \6\ 
featured two complementary competitions, a Youth Prize and a Developer 
Prize.
---------------------------------------------------------------------------
    \6\ http://www.stemchallenge.org/Default.aspx
---------------------------------------------------------------------------
    The Youth Prize engaged middle school students (grades 5 through 8) 
in STEM learning by challenging them to design original video games. 
The Youth Prize design challenge was open to middle school students 
from any U.S. school with a special emphasis on reaching students in 
underserved communities. Twelve winners were selected from a group of 
over 500 entries for their ability to use STEM concepts to design 
engaging, innovative and well-balanced games. Each winner received a 
lap-top computer, and $2,000 for their school or non-profit 
organization of their choice ($3,000 if the school is a recipient of 
Title 1 funding from the U.S. Department of Education).
    The Developer Prize challenged emerging and experienced game 
developers to design mobile games, including games for the mobile Web, 
for young children that teach key STEM concepts and foster an interest 
in STEM subject areas. The grand prize winner received $50,000 for 
their game that teaches children about the physical structure of 
bacteria and viruses, as well as how they are spread.

    Chairman Hall. The Committee on Science, Space, and 
Technology will come to order, and I say good morning to all of 
you and welcome to today's hearing entitled ``STEM in Action: 
Inspiring the Science and Engineering Workforce of Tomorrow.''
    Don't be dismayed by the empty seats here because everybody 
has several committees, and we are in kind of a crucial time in 
Congress right now when our ratings aren't the highest in the 
history of Congress and they are all working hard and trying to 
set in on several committees at one time. We have a court 
reporter over here that takes down everything you say and do 
and it goes into the Congressional Record, and people will read 
what you are saying and doing 100 years from now, and that is 
what is important, and every other Member of Congress gets a 
copy of your testimony and usually either they read it or 
somebody on their committee reads it to them, but they will be 
coming and going from time to time. Mr. Rohrabacher is here, 
and he is going to introduce because of personal friendship one 
of those of you that will be testifying.
    In front of you are packets containing the written 
testimony and the biographies and the Truth in Testimony 
disclosures for today's witnesses. I will recognize myself for 
five minutes for an opening statement, and everybody will 
have--other opening statements will be put in the record.
    So I say to you good morning. I would like to welcome 
everyone here today for the second in a series of STEM in 
Action hearings. The purpose of this hearing will be to 
showcase a variety of public/private partnerships and 
initiatives across the Nation that are successfully inspiring 
the future science, technology, engineering and math, or STEM 
workforce.
    The Federal Government is investing several billion a year 
on STEM education. While there may be a federal role, industry, 
philanthropic organizations, non-profits and local governments 
have also acknowledged the importance of making investments in 
STEM. Partnerships and initiatives formed by these investments 
are very critical to the program. Particularly in this 
difficult budget climate, we want to highlight some of these 
efforts and partnerships that are thriving with little or no 
federal investment. Specifically, the witnesses before us are 
all involved with tremendously successful STEM-related 
competitions.
    As we can all agree, a well-educated and trained STEM 
workforce is imperative and key to our future economic 
prosperity. But we have to capture and hold the attention of 
our Nation's youth in science and engineering so they will want 
to pursue these careers, not simply be forced into them simply 
because we need them. Sitting in a classroom and just 
memorizing text or taking notes can often drain the enthusiasm 
from even the most promising student or students. That is why 
it is important for us to hear from these folks about their 
creative alternatives to teach and inspire kids, who may not 
even realize they are learning.
    Today, we have witnesses from the corporate, foundation and 
non-profit worlds showcasing their creative efforts to inspire, 
motivate and produce our next generation of scientists and 
engineers with little or no federal funds.
    Our Nation has always been number one in science and 
innovation. In order to maintain this prominence, we have to 
have an ``all hands on deck'' attitude toward it. Everyone, in 
some way, shape or form has to have a role to play in STEM 
education so that our children and our grandchildren can also 
experience a vibrant economy with access to good, solid jobs.
    I look forward to hearing from each of our witnesses, and I 
thank you for being here with us today.
    [The prepared statement of Mr. Hall follows:]

              Prepared Statement of Chairman Ralph M. Hall
    Good morning, I would like to welcome everyone here today for the 
second in a series of STEM in Action hearings. The purpose of this 
hearing will be to showcase a variety of public/private partnerships 
and initiatives across the Nation that are successfully inspiring the 
future Science, Technology, Engineering, and Math (STEM) workforce.
    The federal government is investing several billion a year on STEM 
education. While there may be a federal role, industry, philanthropic 
organizations, non-profits and local governments have also acknowledged 
the importance of making investments in STEM. Partnerships and 
initiatives formed by these investments are critical. Particularly in 
this difficult budget climate, we want to highlight some of these 
efforts and partnerships that are thriving with little or no federal 
investment. Specifically, the witnesses before us are all involved with 
tremendously successful STEM-related competitions.
    As we can all agree, a well educated and trained STEM workforce is 
imperative and key to our future economic prosperity. But we have to 
capture and hold the attention of our Nation's youth in science and 
engineering so they will want to pursue these careers, not simply be 
forced into them simply because we need them. Sitting in a classroom 
and just memorizing text or taking notes can often drain the enthusiasm 
from even the most promising student. That is why it is important for 
us to hear from these folks about their creative alternatives to teach 
and inspire kids, who may not even realize they are learning.
    Today, we have witnesses from the corporate, foundation, and non-
profit worlds showcasing their creative efforts to inspire, motivate, 
and produce our next generation of scientists and engineers with little 
or no federal funds.
    Our Nation has always been number one in science and innovation; in 
order to maintain this prominence, we must have an ``all hands on 
deck'' attitude. Everyone, in some way, shape, or form has a role to 
play in STEM education so that our children and grandchildren can also 
experience a vibrant economy with access to good, solid jobs.
    I look forward to hearing from each of our witnesses, and thank you 
for being here with us today.

    Chairman Hall. The Chair now recognizes Mrs. Johnson for 
her opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman, and thank 
you for all the witnesses that have been invited today.
    As I have said so many times before, we truly have a STEM 
education crisis in this country, and I don't need to remind 
this audience about how poorly too many of our students perform 
on tests of math and science proficiency, or how important it 
is for the future of our country that we do something to 
address this serious problem. By ``we,'' I mean all of the 
stakeholders: federal agencies, states, school districts, 
businesses, nonprofit organizations, and parents. We must all 
work together to leverage our respective strengths and 
resources to tackle this issue. STEM education in this country 
is truly a complex and grand challenge that no one entity can 
solve alone.
    Today's witnesses represent the private sector. Companies 
ranging in size from multinational enterprises on down to local 
businesses are realizing more and more how critical it is to 
the long-term success of their businesses that they have access 
to a highly skilled and well-prepared workforce.
    While our government is turning the clock back, other 
countries are pouring resources into building not just their 
associate and bachelor degree-level workforce, but also their 
Ph.D.-level research scientists and engineers, providing them a 
competitive edge we once took for granted. One thing that is 
interesting to me is that while some of my colleagues in 
Congress think the Federal Government has no role here, an 
increasing number of major U.S. companies are turning to 
partnerships with government, including the Federal Government, 
to achieve their workforce needs.
    President Obama also recognized the importance of 
partnerships when he launched the Educate to Innovate campaign 
last year. As part of this campaign, the private sector 
coordinated with the White House and launched Change the 
Equation. Change the Equation brought together a coalition of 
more than a hundred CEOs from some of the Nation's largest 
companies, all dedicated to working together to improve STEM 
education in the country. These companies, of course, including 
Time Warner Cable, Exxon Mobil and Xerox to name a few, have 
all committed resources to STEM programs across the country. 
Many of these successful programs are run in partnership with 
federal agencies such as NASA and the National Science 
Foundation. Among the new public-private partnerships announced 
as part of the President's Educate to Innovate campaign was the 
National STEM Video Game Challenge, and I look forward to 
hearing from Mr. Gallagher about the National STEM Video Game 
Challenge and how he and his colleagues worked with the White 
House and other partners to make the competition a success.
    Competitions and challenges have tremendous potential to 
both inspire students and teach them STEM knowledge and skills 
in ways that the traditional classroom teaching cannot. 
However, we also know from a recent National Academies report 
on informal STEM learning, and a hearing we held on that same 
topic in the 111th Congress, that there remains a big gap in 
understanding how students learn outside the classroom and to 
what extent informal experiences influence their long-term 
interest and success in STEM. Most of what we know or think we 
know is based on anecdotes or attitudinal surveys. Here there 
is a clear and unique federal role in developing the necessary 
body of knowledge.
    The National Science Foundation is the leading entity in 
this country for funding research on STEM learning in both 
formal and informal environments, including competitions. The 
results of NSF-funded research over many decades have helped 
and will continue to help to ensure that education 
practitioners are incorporating effective practices with 
measurable results. At the end of the day, what counts is 
whether the STEM programs we are hearing about are achieving 
their desired results, not how much money we are spending on 
them or even how many students they touch.
    We are all in this together. I commend the witnesses and 
your colleagues in the private sector for your efforts in 
helping to improve STEM education in this country. But I would 
also like to repeat a request that I made at our last STEM 
hearing, that we not continue to ignore the unique and 
important role of the Federal Government in improving STEM 
education in this country.
    Mr. Hall, I thank you very much for this hearing and I 
yield back.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson
    Thank you Chairman Hall, and thank you to all of our witness for 
being here today. As I've said so many times before, we truly have a 
STEM education crisis in this country. I don't need to remind this 
audience about how poorly too many of our students perform on tests of 
math and science proficiency, or how important it is to the future of 
our country that we do something to address this serious problem. By 
``we,'' I mean all of the stakeholders: Federal agencies, States, 
school districts, businesses, non-profit organizations, and parents. We 
must all work together to leverage our respective strengths and 
resources to tackle this issue. STEM education in this country is truly 
a complex and grand challenge that no one entity can solve alone.
    Today's witnesses represent the private sector. Companies ranging 
in size from multinational enterprises on down to local businesses are 
realizing more and more how critical it is to the long-term success of 
their businesses that they have access to a highly skilled and well-
prepared workforce. While our own government is turning back the clock, 
other countries are pouring resources into building not just their 
associate and bachelor degree level workforce, but also their Ph.D. 
level research scientists and engineers, providing them a competitive 
edge we once took for granted. One thing that's interesting to me is 
that while some of my colleagues in Congress think the federal 
government has no role here, an increasing number of major U.S. 
companies are turning to partnerships with government, including the 
federal government, to achieve their workforce needs.
    President Obama also recognized the importance of partnerships when 
he launched the ``Educate to Innovate'' campaign last year. As part of 
this campaign, the private sector coordinated with the White House to 
launch ``Change the Equation.'' Change the Equation brought together a 
coalition of more than a hundred CEOs from some of the Nation's largest 
companies, all dedicated to working together to improving STEM 
education in the country. These companies, including Time Warner Cable, 
Exxon, and Xerox to name a few, have all committed resources to STEM 
programs across the country. Many of these successful programs are run 
in partnership with federal agencies such as NASA and NSF. Among the 
new public-private partnerships announced as part of the President's 
Educate to Innovate Campaign was the National STEM Video Game 
Challenge. I look forward to hearing from Mr. Gallagher about the 
National STEM Video Game Challenge and how he and his colleagues worked 
with the White House and other partners to help make the competition a 
success.
    Competitions and challenges have tremendous potential to both 
inspire students and teach them STEM knowledge and skills in ways that 
traditional classroom teaching cannot. However, we also know from a 
recent National Academies report on informal STEM learning, and a 
hearing we held on that same topic in the 111th Congress, that there 
remains a big gap in understanding about how students learn outside of 
the classroom and to what extent informal experiences influence their 
long-term interest and success in STEM. Most of what we know or think 
we know is based on anecdotes or attitudinal surveys. Here there is a 
clear and unique federal role in developing the necessary body of 
knowledge. The National Science Foundation is the leading entity in 
this country for funding research on STEM learning in both formal and 
informal environments, including competitions. The results of NSF 
funded research over many decades have helped and will continue to help 
ensure that education practitioners are incorporating effective 
practices with measurable results. At the end of the day, what counts 
is whether the STEM programs we are hearing about are achieving their 
desired results, not how much money we are spending on them or even how 
many students they touch.
    We're all in this together. I commend the witnesses and your 
colleagues in the private sector for your efforts in helping to improve 
STEM education in this country. But I would also like to repeat a 
request that I made at our last STEM hearing, that we not continue to 
ignore the unique and important role of the federal government in 
improving STEM education in this country.

    Chairman Hall. I thank the gentlelady from Texas. She 
yields back.
    If there are Members who wish to submit additional opening 
statements, statements can be added to the record at this point 
or a little bit later.
    At this time I want to begin to introduce our first panel 
of witnesses. Our first witness is Mr. Tony Norman, President 
and CEO of Innovation First International, which Mr. Norman 
founded in 1999. I am proud to say he is a constituent from my 
district. One of the interesting things about Tony and 
Innovation First is the commitment they make to the local 
community of Greenville, Texas. If you visit their plant, you 
will see local high school students working on projects and 
interning in the facility to learn more about engineering and 
technology, and many of these students have gone on to college 
to study engineering at Tony's suggestion and his behest, and 
he truly gives back to his hometown and wants to build lasting 
success for Greenville and for the Nation, and he is an 
international operator. I find him sometimes in China, 
sometimes he is somewhere in Europe, and he is kind of hard to 
find, but we are very fortunate to have him here today because 
he is one of the busiest men I know. I had the pleasure of 
speaking at one of his operations in Orlando, I think there 
were five or 10,000 folks there, and Tony told me I had 3 
minutes to speak, and I got into my speech about a minute and a 
half and he was doing what my wife always does to me when I am 
making speeches. He was doing like this, and I think he meant 
for me to stop, and I later learned that with all the great 
technology in the bosom of the United States of America right 
there in the crowd, we had a malfunction of some type, I don't 
know what it was, but it was a great meeting with a lot of 
young kids that were there. Those who won were happy. Those who 
lost were determined to come back and win next year. But it 
really gives you a new perspective on the country when you see 
these youngsters that folks like these three people are here 
testifying for us today bragged on, supported and helped. I 
look forward to it.
    Our second witness is Mrs. Nancy Conrad, and I have known 
her husband for many years, and at this time I yield to Mr. 
Rohrabacher of California to introduce Mrs. Conrad. I really 
wanted to introduce her but Rohrabacher outranks me, and he got 
it. I really need his vote every now and then. I am even going 
out to his home Sunday to make a speech for him Sunday at noon 
and I am going to fly back Sunday night. That is how much I 
think of Mr. Rohrabacher. So you ought to be helping me a 
little more than you are. I recognize Mr. Rohrabacher to 
introduce Mrs. Conrad.
    Mr. Rohrabacher. You got it, Mr. Chairman. You got it.
    It is my personal and professional pleasure to introduce 
Nancy Conrad to Members of the Committee and all of you. She 
has been a close friend for many years. I was a close friend of 
course when Pete was alive and I was a young member of this 
Committee, and he was a very inspiring human being and we know 
all of his exploits in terms of Apollo 12 and the third man on 
the moon, but when Pete was taken from us, Nancy picked up the 
challenge of making sure that America and the world keeps 
moving outward and realized that perhaps the most important 
thing we have to do to achieve the goal of keeping America the 
number one space power to keeping humankind in the ascension 
into space was the fact that we have to have our young people 
trained and motivated to be able to participate in this great 
task that humankind has, which is to deliver our species beyond 
where we are at and into the heavens and into the universe.
    So with this, after Pete's passing, Nancy started the 
Spirit of Innovation Awards as part of the Pete Conrad 
Foundation. She herself of course was an English teacher and 
very involved in education and has been well-known throughout 
the world as an advocate for science education and science as 
part of a young person's curriculum, but today she is going to 
be, I believe, talking to us about the Spirit of Innovation 
Award, and I believe she deserves an award for innovation in 
her approach, and I think that it is--I am looking forward to 
hearing all about it and I know that it should inspire members 
of this Committee but also we should be grateful, and the 
students who are participating in this should be grateful for 
something that excites young people about science, engineering, 
mathematics, things that will carry humankind to our next step. 
So we welcome Nancy Conrad.
    Chairman Hall. Thank you, Mr. Rohrabacher.
    Nancy, we do admire and respect you and remember the 
service of you and your husband.
    Reclaiming my time, thank you, Mr. Rohrabacher, for the 
good introduction. Our third witness and final witness is Mr. 
Michael D. Gallagher, President and CEO of the Entertainment 
Software Association. Mr. Gallagher also leads the ESA'S 
partnership with the Congressional Caucus for Competitiveness 
and Entertainment Technology. Previously, he was the Assistant 
Secretary for Communications and Information at the U.S. 
Department of Commerce. I had the pleasure of visiting with him 
some time ago, and we thank all of you because we know it is 
trouble, expensive. You have to have time to get ready for this 
testimony. You had to come here from somewhere and you have to 
eat while you are here and stay somewhere while you are here. 
You give a lot to be here and we appreciate you, and we really 
ought to have these seats full, but as I explained to you, we 
are in kind of a desperate time up here. We are trying to 
survive a lot of bad situations that is happening to our 
country, and we thank you for giving this time is what I am 
trying to say and not saying it too well.
    But as our witnesses should know and probably do know, 
spoken testimony is limited to five minutes. We are not going 
to hit the gavel on you if you go over five minutes but as 
close to five minutes as you can stay, the more likely you are 
to win the drawing that we may have when this is over. The 
members of the commerce--Committee will have five minutes each 
to ask questions. We will try to hold them to that same.
    So I recognize our first witness, Mr. Norman, for five 
minutes, but you won't be held to that.

 STATEMENT OF MR. TONY NORMAN, PRESIDENT AND CEO OF INNOVATION 
                   FIRST INTERNATIONAL, INC.

    Mr. Norman. Thank you, Congressman, and thank you, 
Committee members, for inviting me here.
    I have 20 years of experience in educational robotics, and 
it basically started back when I worked as an electrical 
engineer at one of the largest defense contractors for this 
country. We spent a lot of time inspiring kids and youth to 
take careers in STEM education, and in fact, one of the 
accomplishments we actually had was get to bring those kids 
here to the White House after winning a championship. Because 
of that experience that we kept seeing how these kids kept 
growing in their inspiration, myself and one of the other team 
members decided you know what, let us believe our own medicine 
here and let us start our own company.
    So we started our own company, as Congressman Hall said, in 
Greenville, Texas, and it is really a great high-growth story. 
In the last three years, we have created 150 jobs. We now have 
offices worldwide, and just to kind of give you a quick review 
of a few of them, one of our divisions, Rack Solutions, builds 
racking equipment for data centers and actually a few products 
for the U.S. military, and the exciting part is, in this very 
highly competitive market we are in, we are actually able to 
compete with U.S. manufacturing, so we felt that was a great 
accomplishment.
    We actually do know kids. In fact, we know kids so well 
that one of our most successful companies is creating toys. 
This toy division was actually inspiration as well from the 
robotics program we have been participating with, which I will 
tell you about in a few minutes, and our largest accomplishment 
to date was last year we just received the Specialty Toy of the 
Year in the toy industry, so that was pretty exciting for us.
    The VEX Robotics design system is basically from our third 
division. It was created as an educational robotics kit, and it 
is really designed for an open-ended problem solving. It is not 
just a set of instructions you actually go through but really 
it is more than just a kit. It is the only platform with 
significant penetration in the daytime classroom and 
extracurricular competitions, so that is extremely important 
and I hope to emphasize that a little bit later. We are showing 
up everywhere in the classroom, and I am just curious if you 
guys could find the VEX robot in this picture.
    Project Lead the Way is one of our partners. We are 
partnered with many 501(c)(3)'s. Project Lead the Way is the 
largest daytime curricular program in the United States and 
they endorse the platform and also endorse our robotics 
competition as well as their competition. Technology Student 
Association, another partner of ours in the space, they are 
actually a co-curricular program where they are in the 
classroom and have competitions out of the classroom. They run 
about 200 competitions, but for robotics, they actually came to 
us and joined the VEX Robotics competition.
    Another 501(c)(3), BEST, Boosting Engineering, Science and 
Technology, is another inspiring. This one is free to all the 
schools that participate and all of their electronics and 
sensors are basically from the VEX Robotics system because we 
have the leading platform in the educational space.
    So we come to the actual VEX Robotics competition itself 
before basically seeing the partners we have with the equipment 
we provided. This last year where Congressman Hall was there, 
we were at Disney World. These are some of our corporate 
sponsors that we are pretty proud of.
    VEX is the largest middle school and high school robotics 
competition in the world. This is kind of a comparison of where 
we compare to some of our other programs that are out there as 
well.
    Basically I want to kind of take you through and show you a 
few images from the competition. It is really hard to describe 
the excitement and the feeling you get there and the 
enthusiasms that the kids actually feel and the scale of it. 
Basically, it takes a lot of donations from corporate sponsors 
to actually make an event of this size actually happen, but it 
affects the students in such a way that we are getting to kids 
that never would be interested in science and technology, and 
it is basically helping build that workforce for the future. 
You can see the scale of this event. Once again, this was our 
main arena for the finals and the pit area, and the previous 
slide shows you just the enormous--it is like a huge trade 
show. Over 600 teams were at this event. And of course the 
excitement, getting them ready, getting them excited about 
science and technology and putting these corporations on 
display so as a corporation donates, it is not just a blind 
donation. They are putting their company on display. So when it 
comes to recruiting these kids and building that workforce for 
the future, they are actually there ready and the students know 
who they are, and in fact, they want to actually go to that 
company.
    Recently, we have done quite a bit with the Boy Scouts of 
America. We helped them create their first robotics merit 
badge. We had a big showing at their jamboree and it was 
extremely exciting. The same thing up here at the Mall in D.C.
    I am just going to end here with, we really plan to 
continue to forge a relationship with more nonprofits, with 
industry, with leaders in the corporate world, and really help 
try to build and inspire that workforce for the future. Thank 
you.
    [The prepared statement of Mr. Norman follows:]

Prepared Statement of Mr. Tony Norman, President and CEO of Innovation 
                       First International, Inc.
    VEX ROBOTICS: INSPIRING AND PREPARING STUDENTS FOR STEM CAREERS

Introduction . . .

    Good morning Committee Members and those joining us here today. My 
name is Tony Norman and I am the co-founder and chief executive officer 
of Innovation First International and VEX Robotics, Inc. I want to 
thank Congressman Hall and the Committee on Science, Space, and 
Technology for inviting me to speak with you here today about how VEX 
Robotics is inspiring and preparing students for STEM careers in the 
21st century workforce. At the start of my career I worked for a large 
defense contractor in Greenville, TX, as an electrical engineer, and 
designing robots for competition is one of the things I'm most 
passionate about. Over the past 20 years I have had the honor of 
mentoring, volunteering and supporting local middle and high school 
robotics teams, which even resulted in a national championship that led 
to an invitation to the White House and personal recognition by then 
President Bill Clinton. It was a combination of all of these life 
experiences that inspired me to start my own business, Innovation First 
International, which is the parent company to RackSolutions Inc., 
HEXBUG Micro Robotic Creatures, and VEX Robotics, Inc. Over the past 
decade, I've been focused on getting VEX Robotics into teachers' 
classrooms and afterschool programs around the nation, and the world, 
which is what I'm here to speak to you about today.
    The world needs today's students to become tomorrow's scientists, 
engineers, and problem solving leaders. The constant breakthroughs in 
chemistry, medicine, materials and physics reveal a new set of 
challenges and create an even greater opportunity for solving problems 
through technology. Finding solutions to these problems could help save 
our country and the world, and it will be the technology problem 
solvers of our future who will become the people who make it possible.
    This underscores the dramatic challenge we face today as a nation: 
there are not enough high school graduates taking an interest in the 
fields of Science, Technology, Engineering and Math (STEM) and feel 
prepared enough to major in these related disciplines going into 
college. This does not reflect a lack of capacity for new students on 
the part of technical schools and universities, but a lack of 
interested and qualified applicants.
    Recognizing this dilemma, scores of private corporations and non-
profit organizations, including Innovation First International, VEX 
Robotics, Inc. and the Robotics, Education and Competition (REC) 
Foundation, are creating non-traditional programs and partnerships 
designed to attract and encourage students to embrace STEM education 
through hands-on learning in the classroom and through after-school 
competition, using robotics as the driving catalyst.
    At VEX Robotics, we have found robotics to be such a powerful 
platform, capable of attracting and holding the attention of today's 
multi-tasking, connected youths. VEX Robotics integrates education and 
technology, and gets entire classrooms of students to have a hands-on 
experience and understanding for what engineering can really be like. 
It's more than just a visual exercise of taking something from a 
textbook and memorizing it. VEX Robotics gives students a chance to 
create and design a robot, and then actually turn that around and build 
it into something physical, something real, that's a very visceral 
experience that most young people don't get nowadays. To have students 
go through this process, they get to see and understand what happens 
when you create your own device, and that's an amazing and character 
building experience that gets them really excited and in turn gets us 
excited about their future with us.
    With VEX Robotics, students get energized about ``learning by 
doing,'' they get comfortable with the ``trial and error'' process, and 
they are constantly involved in applying their knowledge and putting it 
into action--which becomes a process that sticks with them over the 
years. The VEX Robotics Competition strongly appeals to this intensely 
competitive generation and represents the perfect storm of applied 
physics, mathematics, computer programming, digital prototyping and 
design, integrated problem solving, teamwork and thought leadership.

Defining the VEX Robotics Design System & the VEX Robotics Competition 
                    . . .

    The VEX Robotics Design System, recognized with the 2006 Best of 
Innovations Award at the Consumer Electronics Show, was designed to be 
an affordable, accessible and scalable platform used to teach STEM 
education worldwide. The Vex Robotics Design System includes everything 
young inventors need to design and construct radio-controlled robotics 
devices that lift, throw, race and expand the boundaries of 
experimental intelligence. The VEX Robotics Design System comes with 
various sensors, electric motors, a servo, wheels, gears, and 
structural parts. Additional accessories are available separately. With 
VEX Robotics, young people have a fun, non-traditional way to learn 
about STEM, and by working together to create robots that perform 
exciting challenges, they also gain valuable problem-solving and team-
building skills.
    The VEX Robotics Competition utilizes the VEX Robotics Design 
System. Each season, teams build and program a robot to complete that 
season's game, which is revealed each year at the VEX Robotics World 
Championship. The competition is played on a 12'x12' square field. Two 
alliances--one ``red'' and one ``blue''--composed of two teams each, 
compete in each match which consists of a twenty-second autonomous 
period followed by two minutes of driver-controlled play. The object of 
the game is to attain a higher score than your opponent alliance by 
scoring game elements in designated goals. Teams have the opportunity 
of attending local, regional, state, national and international 
competitions.

The Effects of the VEX Robotics Classroom & Afterschool Competition . . 
                    .

    When developing VEX Robotics, we wanted to create a platform that 
would enable kids to have fun while learning at the same time. We also 
understood that the program must be affordable to become sustainable so 
that all schools, public and private, could adopt the platform. With 
VEX, kids learn critical problem solving and computer skills, they get 
experience with hands on building and competition, they learn how to 
become leaders and work as a team, they gain exposure to potential 
future employers, and they get inspired to pursue higher education and 
eventually a career in the fields of STEM.
    Like the Orion Nebula star system, educational robotics is still in 
its infancy, but it is steadily expanding. Robotics has tremendous 
educational potential as it sits at the intersection of STEM subjects. 
The analogy that we like to use for robotics is the Flintstones 
vitamin: Teachers like it because of its educational ingredients, while 
kids like it because it's fun.
    VEX Robotics was designed with the classroom and after-school 
competition in mind. It taps kids' interest in computers, hands on 
building, and the innate human desire to compete, and provides them 
with a very visceral experience that helps reinforce what they learn in 
school. By participating on a VEX Robotics Competition team, students 
develop some of the critical skills necessary for the workforce, 
including problem solving, teamwork, creativity and leadership.
    VEX Robotics taps teachers' interest by providing them with strong, 
standards-based accredited curriculum, higher levels of engagement 
amongst students, enhanced professional development, enjoyment and 
oftentimes rewarding stipends.
    Overall, VEX Robotics motivates more students to explore STEM 
education and consider careers in STEM related fields by making STEM 
fun. It increases engagement in STEM subjects from middle school 
through college. It prepares students for secondary education, it 
better enables us as a nation to meet workforce demands, it increases 
diversity among the workforce and it strengthens our long-term 
competitiveness as a nation.
    Statistics show that we need to encourage more minorities to 
explore engineering opportunities. We need more affordable and 
widespread programs. And we need more teachers and mentors to provide 
leadership among underrepresented minorities. For example, more than 
1,000 inner city students from Baltimore City school districts have 
benefited from their involvement in VEX Robotics over the past two 
years. Specifically, pre and post test scores indicate significant 
gains in science and math test scores as well as class attendance 
amongst students who were exposed to VEX Robotics versus students not 
exposed to the platform.
    Students with a previously undiscovered aptitude for STEM 
curriculum are beginning to flourish in growing numbers due to the 
growing efforts of schools, volunteer organizations, corporations, and 
government entities that are working to integrate robotics platforms 
such as the VEX Robotics Competition, into the fabric of America's 
middle and high school education system.
    It's meetings like this one today that provide encouragement and 
show how many different leaders and industry entities are focused on 
this critical STEM problem. As documented by James Surowiecki in his 
best seller The Wisdom of Crowds, the best solutions emerge when a 
broad and diverse sample of individuals work on a solution to a 
problem.

The Importance of VEX in the Classroom & As an After-School Competition 
                    . . .

    VEX Robotics, Inc., is ten years in development, and a leader in 
designing and supplying the most advanced technology to the largest 
number of middle and high school classrooms and educational robotics 
competitions worldwide. VEX was designed for education, architected for 
competition, and cost engineered for scalability. We are backed by 
industry leaders and VEX Robotics is the apparatus of choice for 
multiple curriculum developers. Our vision has been to offer the most 
comprehensive, cost-effective learning platform that can be scaled for 
Elementary to College students and even further into the workforce of 
the 21st century.
    Meanwhile, the VEX Robotics Competition, created by VEX Robotics, 
Inc. and operated by the Robotics Education and Competition (REC) 
Foundation, is a program that inspires and prepares hundreds of 
thousands of middle school, high school and university students 
worldwide to pursue STEM-related education and career paths.
    Our vision and goal is to motivate, excite and prepare students to 
go to college and pursue STEM education to prepare them to enter the 
workforce specializing in a STEM focused career. Most robotics programs 
that exist today end at high school, are costly and solely focused on 
after-school competition, and rely heavily on engineers from industry 
partners to volunteer their time. VEX Robotics addresses this issue by 
dramatically lowering the cost of participation for schools and 
students, by extending beyond high school through to college, and by 
involving higher participation and support from parents and teachers as 
mentors--because we want robotics to motivate students to go beyond 
high school--we want robotics to show students that they can all become 
top STEM professionals.
    Why is this important to us? For years now, after school robotics 
competition programs have focused on inspiring students to pursue STEM 
careers. It is no longer enough to just inspire kids with robotics 
through after-school competitions, which is what differentiates the VEX 
Robotics platform from any other robotics platform on the market. VEX 
Robotics is the only middle and high school robotics platform with 
significant penetration in both the daytime classroom instruction and 
extracurricular competitions.
    By exposing our youth to VEX Robotics in the classroom as well as 
after-school with the VEX Robotics Competition, more students have 
better access to STEM training and mentoring in the field, making them 
better able to compete and emerge as leaders in the future global 
economy. VEX Robotics provides students with a ``real world'' example 
of the skills they observe and learn in other classrooms and allows 
them to see relevant applications of their knowledge in real life 
situations. They get exposure to companies that could be their future 
employers, thanks to our valued partnerships. It's the perfect model 
for the workplace.
    VEX Robotics kits range from $299 to $849, and the daytime 
curriculum ranges from $199 to $1,295. With VEX Robotics, you can put 
entire classrooms of students' hands physically on robots, working in 
groups of one, two and three. Our custom system is of the highest 
standard and includes over 700 items to choose from. We provide 
Classroom lab kits as easy answers for teachers who want to know 
everything they need to start a program in the classroom. In order to 
continue to ensure the growth of VEX Robotics, we are committed to 
keeping costs low and will continue to improve and innovate when it 
comes to the software and hardware we offer.

VEX Robotics Partnerships . . .

    The VEX Robotics Competition continues to experience explosive 
growth year over year, with more than 4,000 teams from 20 countries 
playing in over 250 tournaments worldwide. We would not be able to 
prepare the next generation of STEM inspired minds through robotics 
education, without the support our valued partners.
    Our partnerships include the REC Foundation, Autodesk, NASA, BEST, 
Project Lead The Way, Northrop Grumman, Technology Student Association 
(TSA), SkillsUSA, EMC Corporation, Carnegie Mellon University, 
Intelitek, Microchip, Innovation First International, the United States 
Coast Guard Academy, iD Tech Camps, Automation Direct and the CREATE 
Foundation.
Daytime Classroom Curriculum & Competition Partners:

    <bullet>  VEX + Project Lead the Way (PLTW): More than 400,000 
students in more than 4,200 schools in all 50 states and the District 
of Columbia are taking PLTW courses in the 2011-12 school year. In 
addition, PLTW has trained more than 18,500 teachers to instruct its 
engaging, rigorous STEM education curriculum. PLTW is the nation's 
largest co-curricular program in the U.S. and its partnership with VEX 
Robotics gives current and future PLTW schools new, exciting and 
cutting-edge opportunities both inside and outside the classroom. 
Students use VEX Robotics equipment during the school day, and they 
also have the ability to take part in the after-school VEX Robotics 
Competition. These competitions allow students to apply their robotics 
knowledge from the classroom in a unique, problem-solving environment.

    <bullet>  VEX + Technology Student Association (TSA): TSA serves 
more than 150,000 students at 2,000 schools in 48 states, and is a 
national non-profit organization for middle and high school students 
with a strong interest in technology. The TSA-VEX Robotics Competition 
provides students with a hands-on, co-curricular competition for 
learning STEM and complements the existing technology-related 
competitions offered by TSA. TSA-VEX Robotics teams compete either at 
events held at TSA state conferences or at other official VEX Robotics 
Competition tournaments. The season culminates with a championship 
event at the National TSA Conference. Specific details on events are 
available at RobotEvents.com.

    <bullet>  VEX + SkillsUSA: More than 300,000 students and advisors 
join SkillsUSA annually, organized into more than 17,000 sections and 
54 state and territorial associations. SkillsUSA is a partnership of 
students, teachers and industry working together to ensure America has 
a skilled workforce. SkillsUSA is a national nonprofit organization 
serving teachers and high school and college students who are preparing 
for careers in trade, technical and skilled service occupations, 
including health occupations. SkillsUSA has partnered with VEX Robotics 
for their Mobile Robotics Competition, which utilizes VEX Robotics 
hardware.

    <bullet>  VEX + Da Vinci Minds: DaVinci Minds has implemented VEX 
Robotics in core classroom curriculum spanning 11 school districts in 
Texas, where students work continuously throughout the year to prepare 
to become tomorrow's innovators. DaVinci Minds offers products and 
services for middle schools, high schools, community colleges and 
universities in a broad array of programs that center on the 
intersection of technology, education and workforce development. Da 
Vinci Minds chose to partner with VEX Robotics due to its price, 
reliability and flexibility. Da Vinci Minds has implemented VEX 
Robotics in high school math classes in about 11 school districts in 
Texas and is expanding.

    <bullet>  VEX + Autodesk: Autodesk is a curriculum partner, and 
also supports the VEX Robotics Competition. The Autodesk VEX Robotics 
Curriculum is a comprehensive robotics program developed for secondary 
schools by experienced educators and technical experts in partnership 
with Autodesk and VEX Robotics, Inc. The curriculum meets U.S. academic 
national standards and helps students master the fundamentals of 
robotics and the engineering design process while learning to use 
industry-leading Autodesk Inventor design software and the leading 
classroom robotics solution, the VEX Robotics Design System. The 
robotics curriculum actively engages students in real-life design 
projects and helps them to develop science, technology, engineering, 
and math skills in a challenging and exciting context. By integrating 
Autodesk's VEX Robotics Curriculum into your classroom, your students 
will see the dynamic connections between science, math, and technology, 
and they will be better prepared for college and careers in 
engineering, design, and robotics.

    <bullet>  VEX + Intelitek: Intelitek is a curriculum and software 
provider for VEX Robotics. Intelitek's Robotics Engineering Curriculum 
is a two-year robotics program for applied science, technology, 
engineering and mathematics. This curriculum maps to national STEM 
Standards and custom-maps to any local standard. REC was built 
speci?cally for the VEX Design System and includes lessons with hands-
on experience for robotics, engineering, and programming. REC provides 
a strong blend of mechanical principles and STEM activities with sensor 
use and programming. Activities are leveled for multiple skill levels 
and each semester includes a teacher guide to provide answers and 
sample programs.

    <bullet>  VEX + Carnegie Mellon University (CMU): CMU is a 
curriculum provider for VEX Robotics. The CMU VEX curriculum is broken 
into six major sections: safety, project management, planning your 
project, robotic lessons, programming lessons, and engineering 
activities. The curriculum is designed to support teachers using the 
starter kit and also teachers interested in taking advantage of VEX's 
advanced features like: advanced programming, controlling motors using 
PWMs and relays, pneumatics, homebrew sensors. Reorganized units make 
for ease of navigation. Units provide step-by-step instruction and 
open-ended challenges where appropriate. Quizzes are incorporated with 
the hands-on learning experience to aid in retention. Key mechanical 
engineering concepts are coupled with the ability to study programming 
and sensor use in-depth if desired.

Extracurricular VEX Robotics Competition Partners:

    <bullet>  VEX Robotics + REC Foundation: The REC Foundation, a 
501(c) (3) non-profit organization, partners with VEX Robotics, Inc. to 
organize and operate the VEX Robotics Competition worldwide. The REC 
Foundation supports robotics and technology events and programs that 
aim to inspire and motivate students to advance in STEM education. In 
addition to supporting competitions for some of the world's leading 
robotics platforms and organizations including VEX, TSA and BEST, the 
foundation also provides program support and workshops focused on 
technology and professional development for educators--including the 
RobotEvents.com community portal website which helps promote multiple 
high quality programs and provides online registration and event pages 
for hundreds of events around the world.

    <bullet>  VEX + BEST: VEX Robotics is a proud supplier to the BEST 
Robotics Competition. BEST Robotics, a non-profit organization reaches 
roughly 750 schools in 14 states resulting in roughly 11,000 students 
currently active in the program. BEST partners with universities and 
other companies including VEX Robotics, to offer robotics kits to 
middle and high school students at zero costs to schools. BEST uses the 
VEX Cortex Microcontroller, VEXnet Joystick and other accessories, 
which we provide to them at a heavily discounted rate. The REC 
Foundation and VEX Robotics are also proud to host BEST's annual 
national championship competition.

    <bullet>  VEX + BSA: VEX Robotics is proud be a partner with the 
Boy Scouts of America on the Robotics Merit Badge. Boy Scouts now have 
the opportunity to earn a merit badge while learning about science, 
technology, engineering and mathematics. Not only did we help in 
developing the Robotics Merit Badge Requirements, but BSA demonstrated 
the new Robotics Merit Badge as a workshop at the VEX Robotics World 
Championship, and more than 20 of the first Scouts to receive the 
Robotics Merit Badge were in attendance.

    <bullet>  Additional Corporate Support: Corporations are throwing 
their support behind STEM development programs like VEX Robotics in 
order to ensure there's an adequate talent pool of engineers to fill 
open positions in the future. Northrop Grumman, Autodesk, EMC, BAE 
Systems, Baxter, Boeing, Boston Scientific, Chrysler, Dassault Systems, 
Delphi, Google, GM, Texas Instruments, Timken, Xerox and 3M are just a 
few of the sponsors of national robotics competitions in the U.S.

    <bullet>  Parent / Teacher Involvement: VEX Robotics Competitions 
would not be what they are today without the support and commitment we 
receive from parents and teachers. VEX Robotics sees significantly 
higher participation and support from teachers given the daytime 
classroom integration through curricula materials and scale of the 
design & build process that lends itself to a wider participation by 
students. Many parents and teachers involved with VEX Robotics describe 
themselves as coaches, mentors, non-technical mentors, or a combination 
of two or more of these roles. A coach is defined as someone who helps 
students with design, building, and planning related to competitions; a 
mentor is defined as someone who shares his or her specific expertise 
in engineering, robotics, computer programming, and/or technological 
areas who serve as advisors to teams; non-technical mentors are defined 
as someone who helps coordinate travel, chaperones students, or odes 
event planning or other similar activities.

Preparing Students for the Workforce . . .

    Through their participation in the VEX Robotics Competition and the 
work they do within their teams, students pick-up many of the academic 
and life skills necessary to excelling in the workforce. In fact, at 
VEX Robotics, Inc., our high school and college internships are 
extended to those who excel at the VEX Robotics Competition. Many of 
our full time employees were initially discovered through their 
leadership and participation in competitive robotics programs.
    According to a study conducted by the Center for Education 
Integrating Science, Math and Technology at the Georgia Institute of 
Technology in June of 2011, student and mentors overwhelmingly reported 
positive student effects from participating in VEX Robotics 
Competitions, in areas including:

    <bullet>  Teamwork- By participating in the VEX Robotics 
Competition, students develop critical teamwork skills, specifically 
referencing a growth in taking individual responsibility for one's part 
on a team, solving difficult problems with teammates, and being a good 
teammate.

    <bullet>  Interest in STEM- By participating in the VEX Robotics 
Competition students develop an interest in STEM education and career 
opportunities, something that was previously lacking. VRC participation 
positively impacts students' interest in STEM, creating a greater 
interest and desire to learn more about robotics, engineering, computer 
science, design and STEM career opportunities in high school, college 
and beyond.

    <bullet>  21st century skills- The VEX Robotics Competition 
positively impacts students in developing their 21st century skills, 
specifically in terms of accepting and providing critical feedback, 
goal setting, using time effectively, collaboration, self-direction and 
motivation, and learning from their failures. Many of the teamwork 
forming dynamics that they go through are parallel to those they will 
encounter in the workforce.

    <bullet>  Self-efficacy- By participating in the VEX Robotics 
Competition, middle school, high school and university students' 
confidence increases, related to school achievement, doing well in STEM 
coursework, succeeding in a STEM career, asking questions, presenting 
ideas, fundraising and communicating.

    <bullet>  Sportsmanship- Participating in VEX Robotics Competitions 
helps students grow their character in terms of sportsmanship, learning 
how to be honest and fair in competitive situations, and learning how 
to value each team member's contributions.

    In addition to improving retention of key STEM principles as a 
result of participating in the VEX Robotics Competition, there is also 
a correlation between participating in VEX Robotics Competitions and 
performing and scoring well in STEM classes.

How we as a Nation Can Spark a Greater Student Interest in

STEM Education . . .

    What we need to do is clear--we need to democratize student 
robotics participation. We need to engage, inspire and prepare students 
to pursue science, engineering and technology in higher education and 
as a profession--and robotics serves as the perfect catalyst. Robotics 
makes STEM relevant to students, and relevancy drives engagement, 
inspiration and action. VEX Robotics was designed for education, 
architected for competition, and cost engineered for scalability. Our 
goal is to continue to forge the necessary relationships with non-
profit organizations and industry to fuel tomorrow's workforce by 
making VEX Robotics accessible to everyone, and integrating this hands-
on learning tool to as many schools as possible, to as many students as 
possible, in as many cities, states and countries as possible.
    Corporations have the most to gain from investing in programs like 
VEX Robotics and preparing students for the workforce. If every 
corporation were to allocate some of the resources that they use on 
recruiting efforts and community involvement, and reinvest those funds 
into programs like VEX Robotics, they would gain enhanced exposure for 
their company, they would be giving back to their community, and most 
importantly, by investing in these kids at an early age, corporations 
would gain immediate access to some of the best and brightest minds 
from which to pull talent when it comes to workforce development. 
Supporting robotics creates a life-long learner that is actively 
involved in building their 21st century skills in addition to 
developing their expertise in the fields of STEM, which are qualities 
that all good employers need and when they look to bring a talented new 
hire on board.
    Thank you for the opportunity to speak to you today about VEX 
Robotics and the VEX Robotics Competition, and how we are inspiring and 
preparing the science and engineering workforce of tomorrow.
    [The powerpoint slides accompanying Mr. Norman's statement 
follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Hall. I thank you very much.
    I now recognize Mr. Gallagher for five minutes for his 
testimony--I mean Mrs. Conrad for her testimony. Same five 
minutes.

  STATEMENT OF MRS. NANCY CONRAD, CHAIRMAN AND FOUNDER OF THE 
                       CONRAD FOUNDATION

    Mrs. Conrad. Mr. Chairman and Members of the Committee, 
thank you for this opportunity to discuss our participation in 
solving America's STEM education crisis, or as I call it, the 
edudemic.
    In a recent article in the New York Times, Tom Friedman 
said, ``If we want more jobs, we need to create more Steve 
Jobs.'' Steve Jobs took his knowledge of STEM and created a 
phenomenon that impacts our lives in ways we can't even 
currently quantify. Bill Gates, Larry Page, Sergey Brin, Mark 
Zuckerberg, they have done the same thing. They too have taken 
their knowledge of STEM, combined it with innovation and 
entrepreneurship and created world-changing breakthroughs which 
have forever altered the way knowledge is valued, shared and 
utilized.
    The hallmark of America's culture is innovation and 
entrepreneurship. It is how we got to the moon. It is how 
companies like Apple, Facebook and Google were formed. It is 
how our country will continue to explore the universe, discover 
cures for disease and become good stewards of the world we 
share with our global neighbors.
    If we are to reinforce America's economic stability and 
ignite our Nation's passion for STEM education, we need to 
embrace an academic plan that focuses on the relevance of the 
knowledge we share with our students. We all know memorizing 
facts to pass a test isn't doing the job.
    The Spirit of Innovation Awards program, the flagship of 
the Conrad Foundation, is rooted in this concept. Our program 
challenges teams of high school students to create solutions to 
real-world problems using STEM-based principles and practices 
supported by innovative thinking and entrepreneurial skills. We 
are energizing the next generation of entrepreneurs and 
innovators needed to sustain our economy. Students who 
participate in the program come from all socioeconomic levels. 
Our student entries come from across the United States, from 
the Navajo Nation to Thomas Jefferson High School, ranked the 
number one high school in the country. We are pleased that one-
third of our students are girls and one-third are inner-city 
students.
    The Spirit of Innovation Awards program operates year-round 
through our online community and our annual event. Our teams 
are supported in their journey by their teachers and our 
community of mentors and experts who together endeavor to help 
these students hone their own design skills as they create the 
innovative products. From aerospace and energy to cybersecurity 
and nutrition, no question is too large for these students.
    Finalist teams are selected to participate in our 
Innovation Summit at NASA Ames Research Center where they meet 
world-renowned scientists and entrepreneurs from industry, 
government, academia and venture capital. The students present 
their ideas and are coached and mentored by these experts with 
the intent of bringing the students' product to the 
marketplace. Winners are awarded a grant to continue the 
development of their product and selected teams are invited 
into our portal where we assist them in patenting their product 
if it is needed and then licensing their intellectual property. 
This is a way for them to monetize their ideas without dropping 
out of school to create companies. We are four years young and 
already seeing amazing results. Let me provide you with a few 
examples.
    Winning teams of the past have addressed nutrition needs 
for astronauts, developed light electric cars, and a smartphone 
biomedical application for monitoring heart rates. Daniel and 
Isaac from Katy, Texas, have two patents on an offshore 
geothermal energy-generating system and they have been archived 
into the Kennedy Presidential Library. Michaela and Shannon 
from Battle Creek, Michigan, created a nutrition bar that meets 
NASA's standards for nutrition and stability in microgravity. 
They have been honored at the White House and recently their 
product was flown above STS 134. This is where real science 
gets real.
    Our program and the media coverage our students receive 
shines a spotlight on how cool science can be and how 
interesting and challenging the careers in STEM can be. We are 
not just growing a program, we are driving a movement. We have 
turned geeks into rock stars.
    Our competition is open to all who wish to participate free 
of charge. We are supported in partnership with Lockheed 
Martin, PepsiCo and Kraft Foods. We receive program support 
from NASA, the American Institute of Aeronautics and 
Astronautics, the American Society for Nutrition, the William 
James Foundation, the National Institute of Health, Sigma Xi, 
museums and science centers, Popular Science magazine, SpaceRef 
and STEM Connector.
    This year we are also taking advantage of a unique 
opportunity to provide our winning teams of students with a 
global scientific experience. In partnership with the 
Department of State, we are planning for winning teams to 
travel to a major international conference on sustainable 
development to be held in Rio de Janeiro, Brazil, in 2012. 
Interactions with scientists from around the world will have a 
lasting impression on these students whose paths may lead 
toward global science and technology.
    We are solely funded through philanthropic grants and 
individual and corporate entities. Our biggest challenge is 
funding the program so we can scale it to reach mass numbers of 
students and expand the services and programs associated with 
the context. The Spirit of Innovation Awards program is the 
only incentivized learning program to combine STEM with 
innovation and entrepreneurship.
    Mr. Chairman, distinguished Members, I believe we must all 
accept the challenge to embrace and propel our students to 
tomorrow's innovation generation. While our education system 
may be broken, our students are not. When given the 
opportunities, their talents shine. They are amazing, they are 
innovative and they are brilliant. Our students will be the 
next Steve Jobs, Bill Gates, Mark Zuckerberg, Larry Page and 
Sergey Brin. This is how we engage America in STEM education 
and this is how we build the innovative workforce for the 
future. We need to leave a better country for our children but 
we also need to leave better children for our country.
    Thank you for your kind attention and I will be delighted 
to answer your questions.
    [The prepared statement of Mrs. Conrad follows:]

 Prepared Statement of Mrs. Nancy Conrad, Chairman and Founder of the 
                           Conrad Foundation
1.  Please describe in detail the STEM competition(s) your organization 
leads, including its history, development, participation, parent/
teacher involvement, costs associated with the competition and with 
participation in the competition, and success rates/stories.
Built on the Legacy of A Pioneer
    The Conrad Foundation and its programs are based on the rich legacy 
of the late Apollo 12 Astronaut and entrepreneur, Charles ``Pete'' 
Conrad. The Foundation was created by Pete's wife, Nancy Conrad, a 
teacher, education activist and Chairman of the Foundation.
    Pete was expelled from a prestigious school in the 11th grade, at 
which time he couldn't read and he couldn't spell. In those days, 
educators didn't always recognize dyslexia. His mother took him to a 
small school where the headmaster saw something special in this young 
man and took him under his wing. Pete went on to earn a scholarship to 
Princeton where he became an aeronautical engineer.
    He was a test pilot when President Kennedy put out the call for 
this country to go to the Moon. Pete was accepted to enter NASA's 
manned spaceflight program where he flew four missions including Gemini 
V, Gemini XI, Apollo 12 and Skylab. He was the third man to walk on the 
Moon and was awarded a Congressional Space Medal of Honor for his 
rescue of Skylab. Toward the end of his life, Pete was working on the 
commercialization of spaceflight.
    He was pioneer of the past and at the leading edge of the vision of 
the future. Pete got his moon shot because an educator took him under 
his wing. Our program is designed to help teachers to take students 
under their wing, provide mentorship and give students their ``Moon 
Shot.''
Why Our Contest Works
    The Conrad Foundation's Spirit of Innovation Awards (SOIA) presents 
high school student participants with a very broad challenge: create an 
innovative product that can be used to address a real-world problem 
with a real-world solution which can ultimately be viable in the 
commercial marketplace.
    The competition is free of charge to students in the United States 
and is also open at no cost to international students. These students 
are given a blank slate within several major categories that can 
include clean energy, aerospace exploration, and health and nutrition. 
But they're not just asked to complete a science project: they are 
required to conduct research to determine their creation's potential 
market impact and develop a full business plan.
    Utilizing a network of world-renowned scientists, engineers, 
academics, and business leaders, the Conrad Foundation connects the 
student teams with mentors to assist in making their ideas a reality.
    A panel of experts selects the top entries to attend the annual 
Innovation Summit, hosted at NASA-Ames Research Center, were students 
present their technologies. There, program participants also have the 
opportunity to interact in a peer to peer environment, with a slate of 
guests who have been among the foremost science, business and academic 
leaders in the world.
    Each year several student teams are also chosen to go into the 
``Portal,'' where the Conrad Foundation helps students acquire the 
patents and funding needed to bring their creations to the open market.
Products of Our Success
    Over the course of the past four years of our program engaged more 
than 1,000 students from a broad socioeconomic demographic nationwide.
    Our student teams received technology patents and recognition from 
government regulatory agencies and the President. They are featured in 
national and international media including BBC, Fox News, CNN, Elle 
Girl, MTV Geek, and Popular Science.
    Our students are also sought after to serve as speakers at national 
and international industry and academic conferences such as the 
International Space Development Conference, AIAA conferences and 
TEDxSF. There are former student projects now archived in the John F. 
Kennedy Presidential Library.

A few examples of our exemplary students' achievements include:

    Daniel and Isaac, high school students from Katy, Texas, have two 
patents on offshore geothermal energy generation system that captures 
energy using deep sea hydrothermal vents as a heat source. It would use 
a modular power network to transfer the energy to shore. They been 
interviewed by the BBC, featured in Popular Science Magazine and 
archived into the Kennedy Presidential Library.
    Mikayla and Shannon, high school students from Michigan, created a 
nutrition bar that meets NASA's exacting standards for nutrition and 
stability in microgravity situations. They have been interviewed by 
Elle Magazine, MTV, CNN, and Fox, and have been honored at the White 
House. Recently their product was flown aboard NASA's shuttle mission 
STS-134.
Building on Strong Metrics
    To ensure we are meeting our mission of improving the delivery of 
STEM education to students and providing quality mentorship 
opportunities, we survey teachers and students at the completion of the 
SoIA. Developed by a former student competitor and a NASA education 
specialist, the surveys are used to assess the success and value of the 
program as a tool for project-based learning in STEM education. Across 
the board, both students and teachers agree that the format provided by 
the Conrad Foundation enhances and improves student interest in STEM 
education and STEM career opportunities.

2.  Elaborate on the public/private partnerships and initiatives that 
make the competition a reality, the role of each partner, why an entity 
chooses to be a partner, and how the partnership is successfully 
inspiring a future STEM workforce.

Partners Help Students Achieve Their ``Moon Shot''
    Because our Foundation is built on the legacy of Pete Conrad, the 
third man to walk on the Moon, our business model for our program is 
based upon America's original plan to achieve the ``Moon Shot''. To 
reach the moon, the U.S. went incrementally, through a rich 
collaboration of academia, government and industry.
    The Foundation mirrors that philosophy by partnering with the best 
academic, industry and corporate organizations in North America. All 
our partners recognize the value of investing in STEM education and 
preparing and nurturing the future workforce of our country.
    The Conrad Foundation established three categories with 
corresponding criteria to define new and current partnerships:

      Corporate Partners: We select Corporate Partners for each 
category that align with our mission and are respected leaders in the 
category field. This year, these sponsors include Lockheed Martin, 
PepsiCo and Kraft Foods.

      Challenge Partners: Each year we have one official Challenge 
Partner for each category to provide expert mentors, judges for 
submissions and post-competition opportunities for students such as 
speaking at national conferences, internships and career opportunities. 
Current partners include American Institute of Aeronautics and 
Astronautics, American Society for Nutrition and the William James 
Foundation.

      Program Supporters: These are organizations or programs that 
support the Foundation and SoIA year after year. We thank them for 
promoting our program through their networks and being a great resource 
for the completion. We put them on our website and invite them to the 
Innovation Summit. Our primary Program Supporters include NASA, 
National Institute of Health, Sigma Xi, museums and science centers, 
Popular Science Magazine and Space Ref.

    This year, in partnership with the Department of State, we are 
planning for winning teams to travel to a major international 
conference on sustainable development to be held in Rio de Janiero, 
Brazil, in 2012. Interactions with scientists from around the world 
will have a lasting impression on the students, whose paths may be 
toward global science and technology.

3.  Expand on the current success of the program/initiative and its 
contribution to inspire and affect the workforce of tomorrow? What are 
the biggest challenges and barriers that you face?

Nurturing Tomorrow's Workforce Today
    The Spirit of Innovation Awards program reaches all socio-economic 
levels and ranges from students from the Navajo Nation to Thomas 
Jefferson High School for Science and Technology, the number one rated 
school in the country. Our program attracts high school aged students 
from coast to coast. Roughly one-third of our students are young women, 
one-third are underserved and one-third are students who enter many 
competitions.
    The Spirit of Innovation Awards is the only competition for teams 
of high school students combining STEM, innovation, entrepreneurship 
and education to solve real world challenges. Further, it is one of the 
only programs that actively collaborates with other STEM organizations. 
This competition is an open platform, free and available to all 
socioeconomic levels nationwide.
    Our students learn design thinking skills and the system of 
incremental development from idea to design to reality. This 
competition isn't about proving how many STEM facts students know. It 
is about taking everything they know, learning more, and working as a 
team with their fellow students, teachers and mentors to create 
something commercially viable with large-scale social impact. While we 
help these students understand the importance of what they are 
learning, they also have the opportunity to innovate and gain 
recognition at a very early age for their product designs.
    As a result of our program, several of our students received 
patents and media recognition, interacted with government, industry and 
academic leaders, and gained the opportunity to commercialize their 
product ideas. We are not only hosting a program, we are driving a 
movement. We are giving teachers an exciting and dynamic way to teach 
STEM, and we are growing the young innovators who will sustain our 
knowledge-based economy.
Addressing Our Challenges
    One of the largest hurdles to overcome was developing a way to 
scale the program in such a way that we can reach a greater number of 
participants. In order to increase the depth of participation, we 
identified two simple ways to create a significant amount of 
improvement in the contest.

    <bullet>  Improve the way we process team applications, which we've 
accomplished through the implementation of an online judging platform 
that will be used by our Challenge Partner judges.

    <bullet>  Streamline the application process into a three phase 
approach which makes the initial ask of the student teams simpler and 
the overall process easier for the coaches to manage.

    However, because we are solely funded through government and 
philanthropic grants, and individual and corporate donations, our 
biggest challenge is funding the program so we can scale it to reach 
mass numbers of students and expand the services and programs 
associated with the contest.

4.  Please describe the effects your competition has on the students 
who participate and elaborate on any other STEM education-focused 
activities your organization spearheads.

    We have a vision for the 21st century learning environment of 
student-centered, immersive learning, fueled by collaboration with 
teachers and public/private organizations. When we set the goal of 
creating a nation populated with creative student innovators, we knew 
the end result would be building a future rich in economic diversity, 
complete with a well prepared workforce and visionary future leaders.
    As a result of our program, several of our students have received 
patents and media recognition, interacted with government, industry and 
academic leaders, and gained the opportunity to commercialize their 
product ideas. In addition, we introduce students to new and possibly 
unconsidered career paths in the STEM industries by giving them 
unequalled access to mentors and experts in a broad array of 
specializations. These mentors and partners are guides to college 
course recommendations, internships and job shadowing opportunities.
    We continue to engage our student alumni by encouraging them to 
serve as mentors and provide peer feedback to current-year teams. These 
alumni will also help us recruit new competitors in an effort to help 
grow and expand the contest.
    The Conrad Foundation is a firm believer in continuous evaluation 
to ensure we are meeting the needs of our nation and providing the best 
quality support to the field of education. While SoIA is our flagship 
program, as we grow as an organization, we intend to develop additional 
programs to help support the mission of promoting the value of STEM 
education nationwide.

5.  How can we as a nation spark a greater student interest in math and 
science education?

    The aim of our competition is to ignite America's interest and 
passion for STEM education. We do this by building relationships in an 
engaged learning community of students, teachers, mentors, advocates, 
industry, academia, venture capitalists, government who are excited 
about the purpose of STEM education.
    By committing to this course of action we help students understand 
that what they are learning has relevance, which has been proven to be 
a critical element in student engagement of education programs. By 
expecting students, teachers and mentors to embrace a rigorous program 
that blends STEM, innovation and entrepreneurship, we are we are 
growing the young innovators who will sustain our knowledge-based 
economy.

    Chairman Hall. We thank you.
    I do now recognize Mr. Gallagher for five minutes.

   STATEMENT OF MR. MICHAEL GALLAGHER, PRESIDENT AND CEO OF 
               ENTERTAINMENT SOFTWARE ASSOCIATION

    Mr. Gallagher. Chairman Hall, Ranking Member Johnson, 
distinguished Members of the Committee, I am grateful for the 
opportunity to testify at this hearing this morning. My name is 
Michael Gallagher and I am the President and CEO of the 
Entertainment Software Association, the trade association that 
represents the industry that creates video games on virtually 
every device that has a screen and a battery including video 
game consoles, personal computers, handheld devices like cell 
phones, and over the Internet.
    We at ESA, the staff and the members, are very appreciative 
of the continued focus of this Committee on the limitless value 
of technology and education and the importance that that focus 
has to the American workforce in the years ahead as well as 
today, and we are grateful to be part of this conversation.
    Webster's Dictionary defines to invent is ``to produce for 
the first time through the use of the imagination or of 
ingenious thinking and experiment.'' Inventions are the bedrock 
of the United States economy since it was born. If you look at 
our history in addition to the current technologies that Mrs. 
Conrad highlighted but going back to the light bulb, planes, 
trains and automobiles, the cell phone, telephones in general, 
computer and the Internet, each of these breakthroughs, each of 
these breakthroughs, each of these inventions created and 
spawned scores of millions of jobs for generations of 
Americans. What they all share in common are root elements in 
STEM and in STEM education. It is of vital economic interest 
for our country that we continue to be as dynamic and world-
leading as possible in the area of educating our youth in STEM.
    Yet today there is a yawning gap between our needs as a 
society and as a country and what we are producing in the 
classroom, and that gap is recognized in bicameral, bipartisan, 
State and Federal arenas. Business and the public sector all 
agree that we are in a mode where we must enhance our 
productivity in the classroom for the benefit of our current 
and our future economic aspirations.
    The video game industry is living in this challenge. Today, 
we are a $25 billion domestic industry. We have grown 120 
percent over the last five years and the jobs that are created 
are across the country in 30 different states where we have 
sites and enormous productivity coming from jobs in our 
industry. These jobs are fundamentally dependent on physics, 
math, computer science and the core STEM curricula that this 
hearing is focused upon. However, beyond our industry, we also 
have the need of broader corporate America looking at trying to 
innovate and invent in today's economy, and in a study that was 
concluded a year ago, over 100 of the Fortune 500 companies 
indicated that they would be using video game technology to 
enhance the efficiency and effectiveness of their workforce, 
and these are companies like Bank of America, IBM, Canon, 
American Express and others who are seeing the value of the 
technology that is inherent in what we do.
    Looking beyond, however, just the corporate opportunity, 
ESA was approached by the Joan Ganz Cooney Center, otherwise 
known as Sesame Street, about three years ago and was 
challenged to do more in the area of education because they as 
educators understood the connection between our industry and 
youth, and many studies show--Pew has a study that shows not 
surprisingly that 97 percent of boys play video games but 94 
percent of girls do as well, and so we have a medium that is 
creative, that is dynamic, that is captivating to the youth of 
our country. We should be capturing that energy. So in 
partnership with Microsoft, PlayStation, Electronic Arts within 
our industry as well as the Joan Ganz Cooney Center, the 
MacArthur Foundation, E-Line Ventures and AMD, we launched two 
different competitions focused on capturing that interest of 
youth and putting it into the classroom in a practical, 
exciting way for education purposes.
    I look forward in the question-and-answer session to 
detailing the specifics of those competitions and their 
success, but this last March, we awarded--one of the national 
challenges awarded its prizes for the first round in the first 
year of competition, there were over 500 entrants in the 
competition and we brought a short video for the Committee 
today to give you a flavor of what is happening in the 
classroom with the ideas that come from our industry, and if we 
could roll the clip. I thank you for the opportunity to be here 
today.
    [Video playback.]
    [The prepared statement of Mr. Gallagher follows:]

 Prepared Statement of Mr. Michael D. Gallagher, President and CEO of 
                   Entertainment Software Association
Introduction
    Chairman Hall, Ranking Member Johnson, and distinguished Members of 
the Committee, I am grateful for the opportunity to testify at this 
hearing. My name is Michael D. Gallagher, and I am the President and 
CEO of the Entertainment Software Association (ESA). ESA is the U.S. 
trade association in service to companies that publish computer and 
video games for video game consoles, personal computers, the Internet, 
and mobile phones. The members and staff at ESA appreciate your 
continued focus on the limitless value of technology in education, and 
its importance to the American workforce, both today and in the future, 
and we are grateful to be part of this conversation.
    If this country is to thrive in the coming years of the 21st 
Century and beyond, our nation's children must regain their position as 
elite students of science, technology, engineering, and math. Those 
four subjects, known collectively as STEM, are the key to unlocking a 
future of American prosperity.
    Over the past several years, ESA and the video game industry have 
undertaken several initiatives in an attempt to play a catalytic 
positive role in engaging children in core STEM subjects. These 
initiatives, designed to tap into our industry's culture of innovation 
and children's enthusiasm toward video games, involve wide-ranging 
public-private partnerships. The initiatives that ESA and its partners 
have undertaken will hopefully be impactful on a larger scale in terms 
of engaging American schoolchildren on STEM. While these initiatives 
are in their infancy and their effect cannot yet be fully measured, 
three things can be sure about the initiatives: first, research from 
organizations like the Federation of American Scientists, National 
Science Foundation and the Joan Ganz Cooney Cetner at Sesame Workshop 
have highlighted the enormous potential of computer and video games to 
foster highly engaged, effective learning and motivation for STEM; 
second the use of games and game-making for education is being greeted 
by children with tremendous enthusiasm as you will see in the video 
footage that will be part my testimony and third, all of the ESA STEM 
video game partnerships have collectively cost the American taxpayers a 
total of zero dollars.
    The various roles of ESA and the entertainment software industry in 
these initiatives--either as a convener, a financial supporter, or a 
project manager--are roles that we are honored to play. As the House 
Committee on Science, Space, and Technology is demonstrating by virtue 
of this hearing, government at all levels can enlist the further 
support of private sector experts and examples to improve America's 
educational performance by drawing attention to initiatives like these.
STEM as the Foundation of the Entertainment Software Industry
    The video game industry has a keen understanding of the importance 
of STEM. We are an innovative and dynamic $25 billion industry that is 
based almost entirely on STEM.
    This is a rapidly expanding nationwide industry that grew 120% over 
the past five years and employs over 120,000 Americans, including 
engineers, animators, graphic designers, musicians, and writers, who 
earn an average salary of $90,000. These high tech, high-paying video 
game jobs are at the forefront of 21st Century, creative ``nex'' 
economy, and are a real-world manifestation of the importance of 
quality STEM and arts education programs.
    While the Entertainment Software Association represents video game 
publishers with worldwide large scale presence, it also includes 
smaller, American video game companies like 38 Studios of Providence, 
Rhode Island and Her Interactive in Bellevue, Washington. Many 
companies in our industry started as the idea of a single entrepreneur, 
then grew into small businesses before blossoming into successful 
enterprises. One such company, Epic Games, headquartered in Cary, NC, 
has grown from humble roots into a multinational entity with its own 
video game engine technology that is used throughout the industry.
    American colleges and universities are swiftly realizing that our 
industry is where the jobs are. Currently, 343 U.S. trade schools, 
colleges and universities offer courses in video game design and 
development, including 43 university graduate programs. Mister Chairman 
and Madam Ranking Member, Texas alone is home to 24 such programs, 
including prominent programs at your alma maters, Southern Methodist 
University. Speaking of the Lone Star State, Texas is quickly becoming 
a major center for high-paying, high-tech video game industry jobs. 
Thanks to a competitive state tax incentive and the leadership of 
Governor Perry, Texas recently leapfrogged Washington to become the 
number two state in the country for video game jobs, adding 1,700 
positions in a fourteen month period alone (from April 2009 to August 
2010).
    Though our industry is strongly represented in places like Austin, 
Silicon Valley, Seattle, and Los Angeles, we are a nationwide industry 
with employees in more than 30 states. As the explosion of casual games 
and online app sales has shown, no single geographic area has a 
monopoly on creativity; anyone with an idea, a broadband connection, 
and programming skills can bring the world the next Angry Birds. But 
again, none of these economic growth opportunities are possible without 
a solid and broadly-based STEM foundation.
Presidential Acknowledgement of the Importance of STEM
    In order for Americans to access such high-tech, high paying 
careers, they need the proper skill sets for these opportunities. The 
fundamental necessity of STEM education has not gone unnoticed by the 
White House's two most recent occupants.
    In 2007, President George W. Bush noted that ``(w)e want to make 
sure we strengthen math and science, because we can't be a competitive 
nation without more scientists and more mathematicians. Because in 
order for us to make sure the best jobs are in America requires us 
having mathematicians and scientists and engineers and physicists.''
    Similarly, in September of last year, President Obama announced his 
initiative aimed at stimulating the private sector's recruitment of 
10,000 STEM teachers over the next two years, when he stated that 
``(s)trengthening STEM education is vital to preparing our students to 
compete in the 21st century economy and we need to recruit and train 
math and science teachers to support our nation's students.''
    This past April, President Obama spoke again about STEM's 
importance at Facebook's Palo Alto headquarters, emphasizing that STEM 
education--especially to girls and minority students--is one of the 
most important investments the U.S. can make if it hopes to produce 
college and career-ready students.
The Educational Power of Video Games
    Although there is general agreement that STEM education is a key to 
rekindling America's global economic competitiveness, we nevertheless 
face a critical STEM skills shortage. The current unemployment crisis 
is not simply a jobs problem, it is a skills problem, and it is our 
nation's challenge to train people to qualify for the high-skilled 
positions necessary to compete and thrive in the global economy. 
According to the Bureau of Labor Statistics, the August 2011 
unemployment rate for those with bachelor's degrees or higher was 4.3%. 
For those that were just high school graduates, it was 9.6%. To give 
one example in our industry, Microsoft recently reported that it has 
4,551 unfilled job openings, more than half of which are for computer 
science positions.
    The United States must educate and develop its own supply of talent 
for the 21st century ideas-based economy, and STEM is essential to 
filling the workforce of the future. However, education experts tell us 
that children increasingly lose interest in core STEM subjects because 
students do not find these subjects engaging, and they don't see the 
relevance of STEM to their lives.
    Since video games enjoy such high nationwide levels of adoption and 
enjoyment, they can be important educational tools to help bridge the 
current STEM gap. They are ubiquitous in children's lives--46 million 
children between 5 and 17 years old are currently gamers, according to 
The NPD Group. As the Pew Trust and MacArthur Foundation recently 
found, ``(f)ully 97% of teens ages 12-17 play computer, web, portable, 
or console games.'' http://www.macfound.org/atf/cf/%7BB0386CE3-8B29-
4162-8098-E466FB856794%7D/PEW_DML_REPORT_080916.PDF
    Researchers and educators are increasingly arriving at the 
conclusion that computer and video games are one of the most effective 
ways to reach America's children. ``Digital technologies are helping us 
to re-imagine learning,'' stated Connie Yowell, MacArthur's Director of 
Education. ``In the digital age, the learning environment is turned on 
its head--it's no longer just the dynamic of the student, the teacher 
and the curriculum. Today, kids learn and interact with others--even 
from around the world--every time they go online, or play a video game, 
or engage through a social networking site.'' http://www.macfound.org/
site/c.lkLXJ8MQKrH/b.6035061/k.43F1/
Digital_Media_Learning_Competition.htm. MacArthur is currently funding 
a $50 million, five year digital media and learning initiative.
    They help address many of the challenges confronting our current 
education system--a lack of student engagement, for example. Educators 
want to take advantage of the enthusiasm of our children for gaming and 
many are using our technology as teaching devices. New programs that 
incorporate video games into traditional education engage students of 
all demographic groups and academic inclinations.
    This approach makes intuitive sense: our economy is increasingly 
digital, and our education system should map to it. Video games promote 
the skills needed to effectively operate in a global economy--complex 
systems thinking, critical analysis, strategic planning, creativity, 
and collaboration. The workplaces of today are radically different from 
those of the 1950s; however, our classrooms are largely the same.
    The key question is how to tap into the natural passion of youth 
for playing and making video games, and connect this passion to 
building a motivation for STEM and other core curriculum subjects and 
developing critical 21st century skills and job pathways. There is 
enormous power and potential in the medium. To fully realize this 
potential, we will need innovative public private partnerships, and I 
applaud the leadership of this Committee in this regard.
    There is great opportunity for highly engaged STEM learning not 
only in having students play well design game, but also in having them 
make them. As Alan Gershenfeld, founder of E-Line Media (one of ESA's 
STEM Challenge partners), points out, ``(d)esigning a digital game 
requires one to think analytically and holistically about games as 
systems, to experiment and test out theories, to solve problems, to 
think critically, and to effectively create and collaborate with peers 
and mentors. These are all skills that will be needed in a twenty-first 
century where virtually every job will involve navigating a complex, 
ever-changing, digitally networked global landscape and where many of 
the future jobs have yet to be invented. Designing and developing video 
games is certainly a very complex process--and yet many kids can't wait 
to jump in and start.''
    There is an aspirational aspect to this discussion that must be 
considered, one that taps into the notion of which careers children 
aspire to undertake when they reach adulthood. If children see video 
game design as a ?cool? and viable career path, and STEM as the 
foundation of that path, then these subjects will become more 
compelling and relevant to them. The space program (and children's 
fascination with astronauts) spawned two generations of aerospace 
engineers. We believe that video games can provide a similar role as a 
catalyst for future generations of members of the high-tech sector; a 
sector that represents a critical component of this country's path to 
economic growth.
    In June 2009, the Joan Ganz Cooney Center at Sesame Workshop 
released a report, supported by the Robert Wood Johnson Foundation, 
titled Game Changer: Investing in Digital Play to Advance Children's 
Learning and Health which concluded that computer and video games 
provide ``an important, untapped opportunity'' to support learning, 
particularly when children and adults play together. That same year, 
the Center launched its Innovation in Children's Digital Media prize 
program, providing incentives for university media labs as well as the 
entertainment software industry to develop research-based games that 
promote learning through digital media.
    Games also use new technologies to incorporate principles crucial 
to human cognitive learning. University of Arizona education professor 
Dr. James Paul Gee recently concluded that video games intertwine 
instruction and demonstration, a more effective learning technique. In 
his book, What Video Games Have to Teach Us About Learning and 
Literacy, Gee points out that video games, unlike the U.S. Education 
system, are designed to effectively engage youth because video games 
are interactive, customized, and ``pleasantly frustrating.'' http://
newlearningonline.com/new-learning/chapter-9-learning-communities-at-
work/james-gee-on-video-games-and-learning/ Therefore, video games are 
great assessment tools in learning; you don't advance or ``level up'' 
if you haven't internalized the appropriate knowledge. Moreover, 
students who design video games around core academic subjects like 
STEM, by becoming not just consumers but producers of educationally 
beneficial content, are more interested in pursuing careers in these 
fields, as LiveScience reported in its recent article ``Video Game 
Design Program Boosts Interest in Science Careers.'' http://
www.livescience.com/10197-video-game-design-program-boosts-interest-
science-careers.html
    The Information Technology & Innovation Foundation highlighted the 
educational benefits of game play in a 2010 report on the need to 
transform education in STEM subjects as a way of refueling the U.S. 
innovation economy. The report stated that ``videogames are well 
structured to be learning experiences,'' because they provide players 
with significant feedback, feature embedded rewards systems, instant 
assessment, engage a variety of senses, allow a user to determine the 
pace of play, and encourage collaborative learning in instances of 
multi-user play.
Real World Examples
    A recent example of an innovative approach to utilize video games 
in a learning environment, is the iCivics initiative, in which former 
Supreme Court Justice Sandra Day O'Connor collaborated with Georgetown 
University Law School and Arizona State University to develop an 
online, game-based learning platform to teach students about civics. 
First launched in 2009, iCivics now features five games about 
constitutional law and the branches of U.S. government, each of which 
also comes with suggested lesson plans that are tailored to meet state-
specific learning standards. In 2011, the ESA Foundation awarded a 
grant to iCivics to develop its newest offering, an international 
relations focused, multiplayer game available on the iCivics website 
and Facebook.
    An example of putting these beliefs into practice is Quest to 
Learn, a New York City public school grounded in principles of game 
design, the first of its kind. Chicago Quest, following the Quest to 
Learn model, just opened for the current school year. http://
articles.chicagotribune.com/2011-03-29/news/ct-met-video-game-school-
0330-20110329_1_video-game-elizabeth-purvis-charters Quest to Learn is 
the first public school in the nation based on the principles of game 
design. http://www.360kid.com/blog/2010/01/salen-interview/ As the New 
York Times recently described the philosophy of Quest to Learn and 
Katie Salen, its founder, ``building a game--even the kind of simple 
game a sixth grader might build--is equivalent to building a mini-
world, a dynamic system governed by a set of rules, complete with 
challenges, obstacles and goals. At its best, game design can be an 
interdisciplinary exercise involving math, writing, art, computer 
programming, deductive reasoning and critical thinking skills.'' http:/
/www.nytimes.com/2010/09/19/magazine/19video-t.html?pagewanted=1
    As the generation that grew up with video games enters and assumes 
leadership positions in the work place, computer and video games are 
being increasingly used to conduct business. A growing number of major 
companies, from automobile manufacturers to beverage producers, employ 
video games to find and train employees and increase sales among their 
younger tech savvy customers. With the video game industry booming and 
its products gaining broader acceptance, the use of games in the work 
place is certain to expand in the years ahead. By the end of 2012, 
between 100 and 135 of global Fortune 500 companies will have adopted 
gaming for learning purposes, according to The Apply Group. One 
entertainment software company, Games2Train, has developed employee 
training games for American Express, Bank of America, IBM, JP Morgan 
Chase, Nokia and Pfizer. In addition, Canon uses a video game in which 
repairmen must drag and drop parts into the right spot on a copier to 
train technicians. IBM has also produced Innov8, a free, interactive 
game that teaches graduate students business and technology skills.
ESA STEM Initiatives
    In collaboration with our partners the MacArthur Foundation, the 
Joan Ganz Cooney Center at Sesame Workshop, E-Line Ventures, AMD, and 
our ESA member company partners--Sony Computer Entertainment, 
Electronic Arts (EA), and Microsoft--ESA helped launch two STEM video 
game design challenges.
    In 2010, ESA launched its first STEM competition, Game Changer, 
with MacArthur, Sony PlayStation, and Electronic Arts. ESA's effort is 
a component of MacArthur Foundation's $2 million annual Digital Media 
and Learning Competition, which ``advances the most innovative 
approaches to learning through games, social networks and mobile 
devices.'' This competition challenged developers to create STEM-
related learning content for two existing video game titles that were 
popular with children--Sony's PlayStation's LittleBigPlanet and EA's 
Spore.
    The second STEM competition, the National STEM Game Challenge, was 
undertaken with founding partners Joan Ganz Cooney Center at Sesame 
Workshop, E-Line Media, the AMD Foundation, and Microsoft, along with 
outreach partners including the American Library Association, Boys & 
Girls Clubs of America, The International Game Developers Association, 
the American Association of School Librarians, and BrainPOP. The 
Challenge was launched in September 2010 by President Obama as part of 
the national ``Educate to Innovate'' campaign.
    The President noted that ``(o)ur success as a nation depends on 
strengthening America's role as the world's engine of discovery and 
innovation.'' The President added, ``I applaud partners in the National 
STEM Video Game Challenge for lending their resources, expertise, and 
their enthusiasm to the task of strengthening America's leadership in 
the 21st century by improving education in science, technology, 
engineering and math.''
    The Challenge encourages the design of new video games that engage 
America's youth in STEM-related learning by targeting the participation 
of developers across three demographics: middle school youth, college 
game developers, and professional game designers. Last year, the youth 
segment of the contest attracted over 500 submissions from children all 
over the country, the winners of which are featured in the video shown 
during my live testimony. The second year of the Challenge will launch 
this Friday, September 16th as part of the Department of Education's 
Digital Promises initiative, which showcases the positive role that the 
federal government can play, at no cost to taxpayers, of incentivizing 
public-private partnerships to develop innovative approaches to vexing 
policy issues.
    Each year during the video game industry's preeminent global 
computer and video game trade show--the E3 Expo--ESA organizes the 
annual Games and Learning Summit to promote a dialogue among industry 
leaders, educators, policy makers, and others on the growing role of 
video games in education, health, and economic development. This year's 
summit featured over 60 experts and spawned several public-private 
partnerships that, while currently in their nascent state, will 
hopefully prove to be as successful as the Game Changer and STEM Video 
Game Challenge.
    Earlier this year, ESA funded and organized The Atlantic's 
``Technologies in Education Forum.'' The forum focused on ``the new 
policies, technologies, and tools available to those working on the 
front lines to bolster American student learning and achievement, 
especially in the critically important STEM curricula.'' The audience 
of stakeholders learned what public policies are necessary to bring new 
technologies into classrooms, how educational video games are changing 
the way students learn, and how new technologies can be used to improve 
vital intellectual skills and prepare the near future American 
workforce to compete in an increasingly advanced global economy. The 
forum featured keynote speakers from Congress and the Administration 
and three panels covering the future of technology in education, the 
path to a new curriculum, and the long term benefits of increasing the 
role of technology in workforce development. The panelists included 
experts from the Federation of American Scientists, DARPA, the National 
Math and Science Initiative, among others.
    Another notable example in the public-private partnership STEM 
realm, while not an ESA initiative, is the Girlstart program in Texas, 
which stems from the work of ESA STEM partner AMD, as well as Dell (in 
collaboration with the Texas Alliance for Minorities in Engineering and 
the Boys and Girls Clubs of America). The Girlstart initiative seeks to 
empower girls in science, technology, math and engineering by 
establishing after-school programs, camps and workshops where 
participants can hone skills used to create computer and video games 
and explore their interests in these and other STEM-related 
professions.
ESA Foundation's STEM-related Grants
    The ESA Foundation (ESAF) is dedicated to supporting positive 
programs and opportunities that improve the lives of America's youth, 
and has raised over $11 million for a wide variety of worthy causes. 
The Foundation awarded a range of grants that further STEM education 
and exploration through video game technology. An ESAF grant in 2011 to 
Case Western Reserve University supported the Great Lakes Game Project 
Challenge through a partnership between Electrical Engineering and 
Computer Science Department and the Great Lakes Energy Institute at 
Case. Students will compete to create a video game focused on wind 
energy and sustainable energy generation.
    The 2011 ESAF grant to a group called Edheads will fund the 
development of an online interactive engineering design experience 
centering on nanoparticles. Edheads will work with the Ohio State 
University Nanoscience and Engineering Center to create a video game 
that will blend engineering, human health and medicine, and critical 
thinking skills to appeal to girls ages 15-18 who are considering 
medical careers.
    Several years ago, ESAF made a three-year commitment to the 
Federation of American Scientists (FAS) to support additional teacher 
training, improve game support materials, increase outreach activities 
and widen distribution and evaluation. FAS created Immune Attack, an 
educational video game that introduces basic concepts of human 
immunology to middle school, high school and entry-level college 
students. Designed as a supplemental learning tool, Immune Attack aims 
to familiarize students with molecular biology and cell biology 
concepts as they pertain to the battle between white blood cells and 
infectious agents. ESAF first supported distribution and development of 
materials as well as teacher trainings for the game in 2007.
    ESAF awarded a grant to the World Wide Workshop Foundation in 2011 
to expand the integration of the Globaloria Platform in low-income 
rural counties in West Virginia. Globaloria is an online social 
learning network for designing and constructing web-games, which 
includes programmable wikis and blogs, game programming tutorials, 
content resources and a self-paced curriculum. Globaloria ``seeks to 
transform education by merging technical and computational skills into 
a rigorous academic curriculum.'' http://www.worldwideworkshop.org/
programs/globaloria/globaloria-in-wv

ESAF looks forward to announcing new grant winners for similar projects 
in the next month.

Conclusion
    STEM education is critically important to our economic success as a 
nation. To better engage youth in learning opportunities around STEM 
skills and processes, we must reach children on their own turf. The 
entertainment software industry is playing a critical role in helping 
to address America's STEM skills crisis by leveraging the creativity of 
our industry to showcase the benefits of STEM education. Video games 
offer a unique way to captivate the imagination of students with STEM 
by tying these subjects to familiar activities which they enjoy. Video 
games provide a powerful environment for STEM learning by letting 
players interact with and even design a story, rather than passively 
consume it. In other words, America needs to build a future workforce 
of not just consumers, but creators.
    As I noted above, visionary educators are increasingly recognizing 
the positive impact of entertainment software and utilizing games as a 
teaching device in a growing number of classrooms, especially in the 
area of STEM. In doing so, they are embracing the cultural and 
technological shifts of the 21st century and expanding the use of a 
favorite leisure activity, computer and video games, into a critical 
and still-emerging educational resource.
    As Michael Levine of the Joan Ganz Cooney Center at Sesame Workshop 
recently noted, ``(t)he transition to a technology-rich education 
system that maps to the modern knowledge-based economy is happening. 
There is no putting the digital genie back into a bottle. It's our 
job--from game developers to the White House--to harness the creative 
power and potential of gaming to help schools engage and excite a new 
generation of technologically-savvy learners.'' We at ESA and in the 
entertainment software industry are honored to play a role in 
catalyzing this transition.

    Chairman Hall. I now thank all of you for your testimony, 
and remind Members of the Committee that we are still limited 
to five minutes on our questions, and I will yield myself five 
minutes to start with.
    I just--I want to start out by saying how amazed I am, Mr. 
Norman, at the progress you have made from the day you broke 
ground out there and how amazed I was when I just accidentally 
stopped by to visit you and to meet you there and to get to 
walk through your place to see youngsters at tables and the 
success just obvious and you trying to buy all the property 
around you to where you could expand.
    I thought back to Eric Johnson, who was a great man that 
bought Texas Instruments, and you know, I was talking to him 
one time and he said he bought Texas Instruments on December 
the 6th, 1941. On December 7, 1941, he was driving out to see 
what he had bought, and I said as the matter of an engineer, 
you are great, but as a matter of timing, you are super because 
December 7, 1941, is a date that lives in infamy that started 
World War II and TI just went straight up like your company has 
done.
    I had the privilege of witnessing the VEX Robotics world 
championship earlier this year, and we walked through and got 
to meet with a lot of those youngsters. Talking to these 
brilliant and engaging young people and watching their 
enthusiasm as they competed and talked to us, both of us, about 
their robots and that was really inspiring to me, and if I 
recall correctly, there is no prize, no monetary or otherwise 
prize for the winners of the VEX Robotics world championship 
other than the thrill of victory, and those that lost seemed to 
be just as thrilled to have participated and the one thing they 
were really moved in on was next year. They were getting ready 
for the next one.
    What is providing the motivation for these kids to compete 
year after year? What do you find?
    Mr. Norman. Well, I think the main thing that is driving 
it, I mean, obviously it is kind of like the Flintstones 
vitamins: it is fun but they don't really know it is good for 
them. And once you start getting them involved, I had a case 
with my own son, he didn't know what I did until he started 
seeing the robotics and the programs and stuff we did around 
that program. So some of these parents that are engineers have 
for the first time taught their kids what they have done and 
what they do for a living and they see us as professionals in 
the workforce creating these things, and especially for our toy 
division for the high school students working for us and the 
college interns to see something they worked on all of a sudden 
appear in the real world is pretty amazing. So that robotics 
competition does that same thing with all those corporate 
sponsors that are involved. They get kind of a peek into what 
that company does and what it would be like to work in that 
kind of environment with science and technology as their 
background.
    Chairman Hall. VEX Robotics world championships is an 
international event. Share a little more with us, if you will, 
about how these teams and alliances from different parts of the 
world work together in the competition and how this provides 
and enhances very valuable communication and cooperation skills 
among the contestants.
    Mr. Norman. One of the aspects of the competition is 
basically putting--forcing two teams to work together as an 
alliance against another two teams, and it changes each match 
so you are not sure who you are competing with the next time. 
So it forces kind of that be nice and don't do anything you 
shouldn't, and it kind of teaches them that professional 
respect you should have as you work in the real environment. So 
once again, it is life lessons as well as science and 
technology.
    Chairman Hall. I will send my grandchildren over there for 
you to talk to.
    What makes VEX Robotics different from other programs that 
are available today and what does it take to accelerate growth 
and reach more students with this program and what barriers do 
you face in achieving accelerated growth?
    Mr. Norman. Well--------
    Chairman Hall. What holds you back? What are you concerned 
with?
    Mr. Norman. Well, we have been involved, like I said, for 
20 years, and I have been involved in a lot of the programs out 
there and a lot of them are extremely good at what they do. 
What kind of differentiates VEX is we started and dissected 
everything as engineers do. We started with the platform, made 
sure we had the most high-tech platform we have and also make 
it scalable so it is cost-effective. We looked at the program 
and how important the program was in mentorship from these 
other companies, and the partners that we went--you saw some of 
the 501(c)(3)'s we are involved with and getting those partners 
there. Then comes the daytime curriculum. You need to be in the 
daytime as well as extracurricular, and we actually 
accomplished both of those through our program, and really our 
growth has been all grassroots, finding these companies to 
spend money instead of recruiting people to put their name out 
there in front of these students and help their environment. 
And then, you know, obviously any money we would get would help 
accelerate that path but right now we are doing an extremely 
good job doing it the grassroots way.
    Chairman Hall. I have about nine seconds left. Mrs. Conrad 
and Mr. Gallagher, I'd want to ask you, what do you find to be 
the most rewarding and aspiring aspects of the work you are 
doing, but I may get a chance to do that later. If I don't, I 
am going to ask unanimous consent to write letters to you and 
ask you to answer these questions.
    At this time I recognize Mrs. Johnson, the Ranking Member 
of this Committee, a very good friend of mine and a neighbor of 
mine in Texas. I recognize you for five minutes, Mrs. Johnson.
    Ms. Johnson. Thank you very much, Mr. Hall.
    I am very impressed with the witnesses today and I am 
delighted that you have taken time to come.
    I have been working with some nonprofit groups that are 
attempting to improve and be a part of volunteers in STEM 
programs around the country--two hundred and some chapters--and 
one of the things that we have encountered is a lack of 
evaluation tools. So what I would like to do is ask you to 
share some of the tools you use to evaluate your program and 
its effectiveness with students and then allow me to copy from 
you. So would you start, Mr. Norman?
    Mr. Norman. Sure. Well, I mean, obviously there is the 
normal studies. We just recently did a study through Georgia 
Tech to kind of put quantitative numbers on what is happening, 
but for us, it is really easy to see what we saw even in our 
local high school is all of these students that started not 
only started heading towards that science and technology role 
but they also became the leaders in most of the organizations 
within the school, anything from a social thing to a chess club 
to a math club, and it really gave them that rise to be a 
leader as well.
    So that is one way, and also once again, they come back in 
jobs. We see a lot of them come back as co-ops, and we 
literally build our entire workforce from the robotics 
community. That is how we have done it. We have eight team 
leaders from around the country that are leaders in our company 
now.
    Mrs. Conrad. We have done something quite unique, I think. 
One of the systems by which we measure what we do--am I on? Now 
I am on. Thank you. I need adult supervision all the time.
    Chairman Hall. That is what is good about having an 
engineer.
    Mrs. Conrad. We need an engineer. Is there an engineer?
    So we have a system that measures what we do. We work with 
a former NASA educator to help us with that. But in addition, 
we have a system that was designed by a student that measures 
the student's response to the work that we are doing. The 
student actually entered the ISEF, the Intel competition with 
this matrix and used us as a guinea pig, and it was just such a 
fantastic system to measure a student's input into the program 
so we have now adopted his tool as part of our measuring 
system, and I think if you are going to do student-centered 
education, what better place than to have a student-centered 
measurement tool in place.
    Mr. Gallagher. Yes. From our perspective, the first thing 
is great partners. I listed a number of them but the Joan Ganz 
Cooney Center has been an innovator in education for over 40 
years. The MacArthur Foundation is extraordinarily dedicated to 
doing things that have an impact in the classroom. And from our 
perspective, our industry is very young and it is very action-
oriented. We don't spend a lot of time talking about what we 
are doing; we spend a lot of time and energy doing it. So I 
would say the focus first on expert partners and leveraging 
their knowledge of how to judge success in the classroom from 
an innovation perspective not from an inertia perspective, 
which if the Members of the Committee, or Mr. Chairman, if you 
saw the movie Waiting for Superman, you can see the tremendous 
amount of inertia that is present in our education system. The 
partners that we work with have a reputation for being 
innovative and overcoming it.
    Second, the focus is on the kids. It is on the learner, not 
on the teacher, and when the learners are engaged, you are 
going to get a better outcome, and we see that intuitively but 
both the MacArthur Foundation and the Joan Ganz Cooney Center 
have put out publications that point to the catalytic value of 
our industry in engaging children on this path, not just 
entertainment but of learning, and much like Mr. Norman said, 
it is embedded in the process. It is not something that is 
force fed to them.
    And then we also make sure, or the partners look at how 
well the games not only are engaging but they are teaching the 
material. They also have wonderful assessment mechanisms. When 
you have a scoring process in a game, the kids are being tested 
as they are going through it and they don't even really know. 
It is just part of the experience, which also makes it fun and 
engaging.
    And then finally, it has to scale because our goal is to 
develop solutions and exciting opportunities in the classroom 
that then can be spread throughout the country quickly because 
we don't want to waste another generation of children while 
these innovations--once they are ready, they should go 
immediately.
    Ms. Johnson. Thank you. My time is expired.
    Chairman Hall. The gentlelady has yielded back her time. 
Recognize the gentleman from California, Mr. Rohrabacher, for 
five minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Thank 
you for holding this hearing and calling these witnesses, and 
let us just note that our founding fathers held technology and 
innovation at a high level, high priority. Very few things were 
actually written into the Constitution but patent rights--you 
know, the word ``right'' was only put in the main body of the 
Constitution when talking about the right technology rights of 
an inventor or a writer, and of course, my favorite founding 
father was Benjamin Franklin, who of course Chairman Hall 
reminds a lot of Benjamin Franklin, meaning a very beloved man. 
I was comparing you to Benjamin Franklin, Mr. Chairman.
    Chairman Hall. You know, we were in law school together.
    Mr. Rohrabacher. I thought so.
    The significance today is we know and we have the same 
value on innovation. The American people place the same value 
on innovation and technology today. However, we are mired down 
in our society and we are being held back, and there are forces 
at play that are holding us back, and not the least of which is 
the failure of public education, which is mired now in 
bureaucracy and union roadblocks to excellence, and people in 
public education refusing to acknowledge that perhaps a science 
teacher might need to be paid more than a basket-weaving 
teacher or something like that. So those of you in the private 
sector are stepping forward, and I think this is a natural 
happenstance in America, and that is, the American people are 
stepping forward to correct a problem, and that is, we don't 
have the progress, and we call it STEM, but we don't have the 
progress in science and engineering and mathematics that we 
should among our young people.
    I would like to first ask Ms. Conrad, in terms of your 
foundation, how do you--first of all, how do you pay for these 
awards and everything? You are not a government agency. How do 
you pay for your upkeep?
    Mrs. Conrad. Good news and bad news. The first two years, I 
funded the program. My children then said to me, mother, you 
are about to be put up for adoption, and the program got too 
big for me so that was the very good news of this. We raise our 
funds through partnerships with large corporations, for 
example, Lockheed Martin and PepsiCo and Kraft, and 
corporations of that nature who really understand and work with 
us as leaders in developing the innovative workforce for the 
future. I mean, we are growing their workforce. The amount of 
money that the students receive as the award for this 
competition--and we only--we don't do first, second and third, 
we do one winner per platform. This year we will be doing 
aerospace to create products for use in aerospace, energy to 
create products for use in energy, we don't care if it is 
renewable, storage or efficiency. We don't say make this and if 
you make it better than the next guy you win. We just say here 
is the problem, make whatever you want. And then this year we 
are going to challenge students in nutrition and ask them to 
help solve weight problems, specifically obesity and healthy 
lifestyles.
    Mr. Rohrabacher. Well, that is great.
    Mrs. Conrad. Yes. So they come up with things that are so 
out of the box, and we don't tell them there is a box, so they 
just jump right out and create amazing products.
    The award that they get, we fund one team that wins in each 
category. We fund them sort of like venture capital. We 
``invest'' in their product idea. Some of them have come up 
with such outstanding products that we help patent them if they 
need a patent, and then help them license their IP into the 
marketplace. The kids get a $5,000 grant, and the grant is 
discretionary. It must be used to continue to develop their 
product idea. So the funding comes primarily--well, at this 
point almost solely from corporations that work with us. We 
also have had a discretionary grant--pardon me--an unsolicited 
grant from NASA Ames that has been very helpful to us, and NASA 
Ames has been tremendously supportive of our efforts.
    Mr. Rohrabacher. I think Pete would be very proud of 
everything you are doing and so I thank you very much.
    Mrs. Conrad. Thank you, Dana.
    Chairman Hall. Thank you. The gentleman yields back and I 
now get to recognize the gentlelady from Maryland who sits just 
as far away to the right of me as she can sit. I recognize her 
for five minutes.
    Ms. Edwards. Wow, Mr. Chairman. You know, you started out, 
Mr. Chairman, this morning saying that there weren't a lot of 
us here but I think it is important for us to recognize quality 
and not just quantity and so I am glad to be here with the 
Members of the Committee and also our witnesses and thank you 
very much for your testimony.
    Among the occasional frustrations that I have here in this 
institution is that we are constantly insisting on either/or 
answers, responses to questions in a really dynamic world that 
is anything but either/or answers, and that is looking at STEM 
the relative role and responsibility of the Federal, State and 
local government of our private partners in developing this 
next generation so that it has the skill set to compete in the 
21st century, and I think it is on all of us in each one of 
these sectors to do what it takes to develop that next 
generation, and I take it from your testimony that you share 
that.
    I want to start with Mr. Norman because I do understand the 
value of STEM partnerships like yours. I know that we have 
Project Lead the Way projects in my Congressional district in 
Prince Georges and Montgomery County just outside the city, but 
one of the things that strikes me is that it would be 
impossible to take advantage of the platform that you offer had 
it not been for federal grants and State grants and local 
support for the local school systems that are partners in those 
projects, that having the platform itself is not enough to 
engage students on an ongoing basis. We need the federal 
support that comes to our State and our local school systems to 
enable the resources and teachers to be able to effectively 
participate in those projects.
    You talked--in your financial disclosure form, I notice 
that you did not mention that you actually have an active grant 
from NASA, for example. I am sure you have other--or maybe you 
have other federal grants and opportunities too and so the work 
that you are doing and the platforms that you provide aren't 
just reliant solely on the purview of the private sector. There 
is at least at some level a partnership with the Federal 
Government and so can you explain to us why you did pursue 
federal funding and what value that provides in your ability to 
develop these really innovative and creative programs for 
students around the country?
    Mr. Norman. Absolutely. I guess the clarification I need to 
put in is, I am here representing Innovation First 
International, which has a company that is VEX Robotics that 
created this platform and finds those partners. The actual VEX 
Robotics competition is managed by another nonprofit called the 
Robotics Education and Competition Foundation. That foundation 
was created after years similar to Ms. Conrad where our self-
funding was--it was getting overwhelming based on the size and 
the growth we had, and we thought the best way to actually be 
able to accept more donations from other corporations was to 
have that true 501(c)(3) backing us. So we have actually kind 
of handed the management off of that competition to that 
nonprofit. That nonprofit has gone and gotten some NASA grants, 
in fact, but it is an extreme minority compared to the 
corporate donations that exist.
    Ms. Edwards. But I guess my point is, and I will go to Ms. 
Conrad and Mr. Gallagher as well, is that the things that you 
do, and I think they are really valuable and they are terrific 
and you reach students, but in order to reach your traditional 
public school student who, you know, may not come from a 
background that allows them to participate and all kinds of 
other limitations, wouldn't you agree that we do need the 
combination of the value that we get out of our scientific and 
research institutions along with what happens in the private 
sector?
    I know in my community, NASA, Goddard, NIST, NOAA, these 
agencies are really unique partners along with our university 
community that receives federal funding that enables them to 
assist in our K-12 education. So the Federal Government and its 
agencies are not an aside to the work that we do; it is a 
partner. Isn't that correct?
    Mrs. Conrad. I would say that the partnership, and I will 
call it that, that we have with NASA has been extraordinary. It 
is not about funding necessarily but it is about support in 
terms of facilities and mentors and information and something 
that you can't put a number on but has tremendous value not 
only to the foundation but to the students. I mean, our 
students, when they come to NASA Ames to do our innovation 
summit, they are so excited to be at a NASA facility, and Pete 
Warden comes and talks to the kids and it is very peer to peer, 
and it gives them a whole different perception of a government 
agency. It is much more inclusive and more dynamic and 
interesting and exciting for these young students. The 
Department of State is working very closely with us now, not 
necessarily having anything to do with money, but support and 
collaboration and partnership, and I think when you create new 
systems and you do it through collaboration and bring silos of 
excellence together with a strategic plan of actually growing a 
new system of education, then everyone can get in the sandbox 
together, so to speak, and actually drive the change that needs 
to happen from the point of view of collaboration, which may or 
may not include funding.
    Ms. Edwards. Thank you. My time has run out.
    Mr. Chairman, again, the point, though, is simply that 
whether it is resources or facilities and those things, those 
are resources, that is money also. It just doesn't come in the 
form of cash. Thank you very much, and I yield.
    Chairman Hall. Thank you very much, Ms. Edwards.
    The gentleman from Tennessee, Mr. Fleischmann, is 
recognized for five minutes.
    Mr. Fleischmann. Thank you, Mr. Chairman, and I want to 
thank the panel today. This is really incredible. I have 
enjoyed it very much. I represent the 3rd district of 
Tennessee, which has the Oak Ridge National Laboratory in it 
and Y12, so it is a very, very strong science centric district, 
and this is really helpful for me.
    Mr. Gallagher, I have a question for you, sir. You 
testified that no federal dollar support is involved with your 
competitions. At the same time, the National STEM Video Game 
Challenge is touted as part of the President's Educate to 
Innovate initiative. Could you kindly detail for us how the two 
are connected and what the federal contribution is if it is not 
monetary, sir?
    Mr. Gallagher. I am very pleased to take that question, and 
it is something that we are particularly proud of. When it 
comes to the role of the government, we see it on the front end 
as being the beacon of leadership, and then once we develop 
solutions, exciting tools for use in the classroom that they 
actually need to be implemented by government on the State 
level because that is where the rubber meets the road when it 
comes to education, so with the White House, there is a great 
enthusiasm for the ability of our industry to connect with 
youth on STEM-related issues and STEM opportunities. So we were 
put together with our partners through the leadership of the 
White House as part of an overarching leadership initiative 
that was not funded by federal funds. It is much more of a 
leadership exercise, and again, shining that beacon. And then 
we are in the process now, we are just going to start year two, 
will be announced this Friday in partnership with the White 
House again through the Department of Education. We intend to 
make that announcement with our partners. We are excited about 
taking the challenge to the next level. But when we have these 
modules, these units that are useful in the classroom, when 
those then need to be implemented, that is going to need to be 
done by the teachers on the ground and it is through greater 
partners like Brain Pop that we would expect to see that 
happen.
    Mr. Fleischmann. Thank you very much.
    Now I have got a question, and I will start with Mr. Norman 
and going across the panel. Do you all track the college or 
career paths of your competitors, and if so, what are you 
finding?
    Mr. Norman. Not from the company side. From the foundation 
side, they are putting plans in place to try to help track that 
but at this time, you know, from the company side and the 
product side, we do not track that.
    Mr. Fleischmann. Mrs. Conrad?
    Mrs. Conrad. Yes, we are tracking it and we are watching 
our students enter STEM-related fields in college.
    Mr. Fleischmann. Okay. So there is a direct correlation 
between what you are doing and productivity on the other end?
    Mrs. Conrad. There seems to be, yes.
    Mr. Fleischmann. Excellent.
    Mr. Gallagher?
    Mr. Gallagher. Yes. Our experience as an industry is almost 
in reverse. There is such a huge demand within our industry for 
qualified STEM-educated workers that we look at the university 
system and we see that as where they are grown, and we just 
released a study, the Entertainment Software Association did, 
that counted 343 universities around the country that either 
offer a curriculum in video games or have degrees in video game 
technology. Twenty-four of them, Mr. Chairman and Ranking 
Member Johnson, are in the State of Texas, and I am proud to 
say that SMU, your alma mater, also offers a program that is 
focused upon video game excellence and going right into this 
workforce. So we are seeing it more from, we have a need and 
then let us grow it from the bottom up.
    Mr. Fleischmann. Thank you very much.
    Mr. Chairman, I yield back, sir.
    Chairman Hall. Thank you. The gentleman yields back. The 
gentlelady from Ohio, Mrs. Fudge, is recognized for five 
minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman, and thank you 
all for being here. I just have a few very short questions.
    First, if you could each just tell me in a program cycle or 
year, if that is your cycle, how many young people are involved 
in your program?
    Mr. Norman. In the VEX Robotics competition, once again, 
there are several of the other partners that use out platform 
but just in the VEX Robotics competition, we were running right 
at 4,000 teams from schools, and teams range anywhere from five 
to 15 students per team.
    Ms. Fudge. Okay.
    Mrs. Conrad. Mr. Norman, we will take your overflow. We are 
very small. We are very young. We get about 600 teams coming 
into our competition right now.
    Ms. Fudge. Okay.
    Mr. Gallagher. In the National STEM Video Game Challenge, 
we had 500 students compete in year one and then we will look 
to see that grow in year two.
    Ms. Fudge. Thank you. Now, let me ask, would all of you 
agree that all students need to have STEM education?
    Mr. Norman. Absolutely.
    Mrs. Conrad. Absolutely.
    Mr. Gallagher. I would agree, it is a top priority for 
students to have a grounding in STEM. However, our economy is 
diverse. Our needs as a country are quite broad and there may 
be a need for a broader range of skill sets.
    Ms. Fudge. I am not saying exclusively STEM.
    Mr. Gallagher. Okay. All right. Very good. Yes.
    Ms. Fudge. Okay. Now, let me also say, and I appreciate Ms. 
Conrad's comment about, you know, how research and development 
in STEM fields have been the result of things like cures for 
diseases and how we send people to the moon, but I would say 
that we all need to recognize that most of that came as a 
result of government-funded research and development, and I 
think it is significant to say that.
    Certainly as well, I think that it is important that all 
young people have an opportunity to not necessarily be involved 
in a competition but in fact to prepare themselves for jobs are 
going to be created in the next few years. I mean, there are 
some studies that say 80 percent of all new jobs in the next 20 
years are going to come out of the STEM fields, so I think all 
young people need to have that opportunity.
    Let me just ask a couple of very quick questions again. 
What functions of your program are enhanced by involvement with 
entities like public schools and that are funded and regulated 
by the Federal Government? My colleague tried to get to that 
issue. I want to just go back to it.
    Mr. Norman. With public schools, once again, most of the 
funding for our program is a school partnering with a local 
business and not actually going and trying to find State or 
government funding. It is actually literally finding a 
corporation in their area and having them sponsor that--------
    Ms. Fudge. I am not talking about funding. I said what 
functions. How do you interact with the public schools? Let me 
say it that way.
    Mr. Norman. How do we interact?
    Ms. Fudge. Yes.
    Mr. Norman. Well, I guess the biggest thing is the 
curriculum inside the classroom itself. I mean, it becomes a 
daily--the schools that have been the most successful and 
involved the longest, they actually create classrooms within 
the school, that is, actually the real robotics classroom------
--
    Ms. Fudge. Do they provide the teachers or educators? How 
does that work?
    Mr. Norman. Well, we have a couple of partners. We have 
Carnegie Mellon University that creates curriculum. Intellitech 
is a for-profit company that creates curriculum. AutoDesk 
creates curriculum. And all of those together really help pull 
it to get it to the classroom. The most important thing, 
though, is getting the teachers trained, and that is where a 
lot of these same partners actually train the teachers.
    Ms. Fudge. They train the public school teachers?
    Mr. Norman. Because teachers are scared of technology. Some 
of the teachers that have been in the workforce for a long time 
are scared of technology and you have to get them over that 
hump.
    Ms. Fudge. Okay. I just want to be sure. So these are 
public school teachers that are teaching?
    Mr. Norman. Public school teachers.
    Ms. Fudge. Thank you.
    Ms. Conrad?
    Mrs. Conrad. Thank you. Our entry into the school systems 
comes primarily through partnerships. We also partner with 
Project Lead the Way. We don't do curriculum and we don't 
teacher training. We have partnered with the National Science 
Teachers Association, which gives us access to a number of 
teachers who take our program in because it is an exciting way 
to bring STEM education into the classroom. So we are very much 
part of the in-class and after-school programs as well.
    Ms. Fudge. Great. Thank you.
    Mr. Gallagher?
    Mr. Gallagher. The function of public and private schools 
in our competition is principally to have the students that are 
available to compete, right, the 500 students that competed in 
the National STEM Challenge, so they spread the word, and 
partners like Brain Pop are actually an organization of 100,000 
middle school teachers that then are told about the 
competition. The kids then organize and then bring the projects 
forward for judging and for potential award.
    Ms. Fudge. Okay. Thank you.
    Mr. Gallagher. We also have the transmission mechanism at 
the end of the day will actually be through the schools 
themselves implementing these modules that are developed by 
these kids.
    Ms. Fudge. Thank you so much.
    Mr. Chairman, I yield back.
    Chairman Hall. The gentlelady yields back. The Chair 
recognizes Mr. Brooks, the gentleman from Alabama, for five 
minutes.
    Mr. Brooks. Thank you, Mr. Chairman. As a quick overview, I 
would note that the vast majority, in my judgment, of 
improvements in technology over the years have been because of 
the private sector where there is a profit incentive for people 
to excel. It might be new diagnostic tools in medical care. It 
might be new treatments in medical care. It might be 
technology, for instance, in the gaming industry with computer 
games or what have you. So our question here today is this 
additional bump that the Federal Government provides, what do 
we get for it and it is worth the cost in this time of 
budgetary issues that everybody in America is familiar with?
    Now, that having been said as an overview, the Federal 
Government is spending more than $3 billion a year to improve 
STEM education in this country. Mr. Gallagher mentions 
President Obama's goal of recruiting 10,000 STEM teachers and 
recruiting 10,000 engineers. In the 2007 America COMPETES Act, 
back when President George Bush was in office and the Democrats 
controlled the House and the Senate, Congress initiated a 
program to recruit 10,000 STEM teachers, so the President's 
idea is not exactly new.
    Regardless, the Federal Government has been investing 
billions in STEM education for years, and the numbers do not 
seem to be improving dramatically. Is it a teacher issue, a 
subject-matter issue or something else? Are initiatives such as 
yours not only grasping students' attention but holding that 
attention and developing it into something more? Any of you all 
can volunteer any insights you may wish to share on the topics 
that I have just raised.
    Mr. Norman. I guess basically what we pointed out earlier 
is it has to be fun, once again back to the Flintstones 
vitamin. Once they get engaged, they realize it is fun. And 
also once again partnering with these corporations within their 
community. You are putting these engineers and these inventors 
on a pedestal and you are basically creating someone that you 
want to be. It is just like everybody wants to be a quarterback 
of a football team. Well, when you are involved in these 
programs, you want to be that engineer that is designing and 
inventing the next toy or medical device coming out.
    And as far as like, you know, basically--and going back to 
the NASA comment on funding on our program, it is my 
understanding that that funding is actually used as a 
recruiting tool for NASA for their future scientists and 
engineers to come work for NASA. It is really their recruiting 
program. It is not a hey, we are going to give money to just 
pump STEM. That is their--that is a lot of the program they are 
trying to push in there as well.
    Mrs. Conrad. You talked about better teachers and things of 
that nature and better schools. I think if we can look at 
education from a systems point of view and look at it that it 
is not just teachers or the technologies or the students or the 
parents or the building, it is really all of it, and I think 
what the private sector can do that perhaps is more nimble is 
to take that systems approach and bring all of those silos of 
excellence together to really drive something superior in the 
STEM education field because we are nimble and we can act 
quickly and we can respond to students and we can create 
student-centered education very quickly.
    Mr. Gallagher. Congressman, I completely support the core 
challenge of your question is that we, as I stated in my 
opening testimony, face a crisis of making sure we have the 
STEM-educated workers we need to keep ourselves prosperous here 
in the United States and keep us in a leading position in the 
world, and that gap that is at the core of your question is 
precisely what motivates our interest in this subject. So while 
we are not federally funded for the efforts that we are 
undertaking and we are working aggressively to catalyze 
solutions, it is a bipartisan opportunity. It is a very, very 
important goal for us to tackle as a country, and we are much 
more focused about the solution instead of the cause, and we 
really want to develop those tools that are going to be useful 
in the classroom and ready immediately.
    Mr. Brooks. Let me have one follow-up question for 
whichever of you may want to answer. By way of background, my 
dad is an engineer, my two sons are engineers. My mom, my wife 
and my two daughters are teachers, my wife, a math teacher up 
until the time I got elected, very active in the STEM program 
in her middle school. There is a control issue. Where do you 
think the control of these STEM investments should be? At the 
Federal level, at the State level, at the local school board 
level, in the private sector where you all tend to be? What do 
you recommend?
    Mr. Norman. All of the above. No, actually, the local level 
for us seems to work better, and the reason I equate to that is 
from the standpoint of the corporations for us are the ones 
that provide the money, and the key to our program is finding 
that teacher that was willing to be a champion and go do this, 
and without that champion teacher, then you don't have that. 
Obviously, funding from the high levels would be a huge rocket 
for this program but we are building it in lieu of assuming we 
will never get funding from the government.
    Mr. Gallagher. I would comment that it is go to the core 
competence of the actors that we are seeking to engage, and the 
Federal Government is really good at drawing large attention 
and having large projects that capture the imagination of kids 
and provide infrastructure, a pathway that they can understand 
or be excited by. The states are the ones that are the, 
remember I said before, the rubber meets the road, and that is 
where the implementation, the transmission mechanism has to 
happen. The private sector, we have a variety of tools at our 
disposal because of technology, because of the nature of our 
workplace. In my case, the engagement of our industry is that 
youth pay great attention. Each one has a core competence to 
add to an overall solution.
    Mrs. Conrad. I agree. I think that these smaller programs 
have the power to really drive impact where the government is 
looking for very large scale, very huge programs and it is all 
based on evidence-based education and numbers, and young 
programs such as the programs that Mr. Gallagher and I have, we 
don't have that large scale to get the funding that would be 
from the Federal Government or through the States right now. 
That will come. But we have the ability, as I said, to be 
nimble and to really drive something unique and exciting for 
these young students to get them engaged.
    Mr. Brooks. Well, thank you for your insight, and Mr. 
Chairman, it seems that I owe you 2 minutes.
    Chairman Hall. Ms. Johnson says we will send you a bill.
    The gentleman from Maryland, Mr. Sarbanes, is recognized 
for five minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you to the 
witnesses today.
    I want to continue this theme about the partnerships 
between the Federal Government and the various initiatives that 
you are involved with and others, and Mr. Norman, you made a 
couple of statements that I would like to repeat because I 
think they are good ones. Early on, in response to a question, 
you said that any additional money that you can get for your 
program will help to accelerate the projects that you are 
involved in, and then you said just a moment ago that funding 
from high levels would be a huge rocket for your program, and I 
just--I want to emphasize that because Congresswoman Edwards 
introduced this subject of not getting stuck in an either/or 
kind of frame here, but really examining the full potential of 
partnerships to be developed between government and the private 
sector and ordinary citizens. I mean, I am sure your programs 
pull in a tremendous number of volunteers, in a sense, who 
become as key an ingredient to the success of them as any of 
the more formal components are and so these partnerships have 
tremendous potential, and there has been some reference to the 
investment made by the Federal Government in STEM education, 
suggesting somehow that is maybe off base or more than it 
should be or something, and I think we should be very proud of 
that investment, and I think we should make good decisions 
about how that is going to be productive for our future. And I 
think your testimony, all of your testimony is consistent with 
that perspective, so I want to thank you for it.
    Maybe if you could just each of you speak to it for a few 
more seconds on my time, I would be happy to have you do that, 
because in an environment where the imperative every day seems 
to be to cut back, we are at risk of undermining the kinds of 
partnerships that you are engaged in and can mean a great deal 
for our future and frankly they will pay us back in spades on 
investment in terms of the new inventions that will be 
generated and what it means for our competitive position around 
the world and for our economy. So I invite you to offer a few 
more comments on that if you like.
    Mr. Norman. Yes, and I think it is important that when once 
again when you look at the private sector and look at donations 
from the private sector, as I said, a lot of it is what I 
consider recruiting for that company and giving back to their 
community. But the important thing is, is rather than if 
someone just--if every company involved with us just wrote a 
check, that wouldn't be impactful. Money is not that--it is 
taking their engineers and the people in their community and 
making them heroes and making them want to be that person and 
go to that person. So that is where it is a little bit 
different.
    And when I say Federal funding would extremely help, you 
know, rocket I mean, I am looking at, you know, we can't afford 
enough teacher training. I would actually take the 
entrepreneurial way we built our company, which was I would 
market our program. I would market the program to the Nation 
and tell them what we are doing and try to get those companies 
to jump on board so that I didn't have to worry about that 
funding in the future.
    Mrs. Conrad. I think all of us face the funding monster 
every year, and it is an annual thing, and yes, government 
participation in programs such as ours would make a tremendous 
difference. I mean, in scale, we would go to the moon, if you 
will. So it would be really fantastic if government could see 
its way to including young, innovative programs such as the 
programs we have in their funding cycles. That would be 
fantastic. And as Mr. Norman said, what is incredibly important 
beyond and above and with that is the integration of government 
agencies with our programs, with our students in direct ways, 
even peer-to-peer ways.
    Mr. Sarbanes. Mr. Gallagher, let me jump in and ask you a 
different question because I am going to run out of time. Your 
industry has incredible influence over our young people, and 
you know, it can be for good, it can be for bad. It can--I 
don't think it can be neutral. I am convinced that one scenario 
for our future is that one day everyone will come home and play 
video games all night and then they will go back to work the 
next day and they will be working at jobs creating video games 
and that will essentially be our economy and our world.
    You know, I see all these devices, the Wii, the DS, the 
handheld--all these things that really consume the imagination 
of our kids, and what I am curious about is, are you all 
looking at how on the gaming side, think of what happens at 
home, what happens in the entertainment, as it were, leisure 
space of the next generation and how you can start to tease 
into that connections back to education, so we are not thinking 
about what happens in school, what happens at home but how to 
link those together.
    Mr. Gallagher. Congressman Sarbanes, that is an excellent 
question, and the answer is yes, we are doing that and it is 
through the first partnership that we developed. It is a 
competition called Game Changer and the partnership focused on 
how do you take titles that are very popular with kids right 
now and add an education component to it because as Mr. Norman 
highlighted earlier, if you make it homework, they won't do it. 
If you make it boring or monotonous, then they tend to be 
distracted to go do other things. How do we capture the appeal 
of our industry and channel their energy in an area where they 
are learning without really thinking about it? And the two 
titles that our industry made available, which is very highly 
protected intellectual property but they said okay, we will 
open this up and make available. One is Little Big Planet, 
which was Game of the Year two years ago. That was made 
available by PlayStation. And the other was Spore, which was 
made available by Electronic Arts published by EA, and both of 
those games are very creative where the kids need to develop 
everything from physics and math to make the games work. They 
actually design their own worlds. They are doing that within a 
curriculum that is math-science based. So that is one example 
of what we are doing.
    On the other competition, it is focused on a core 
principle. We believe that we should be developing a middle 
class not just of consumers but of creators, and by putting the 
tools in their hands like we saw in the opening video, you are 
seeing the kids create their own experience. In that process, 
they are learning and they are learning in a dynamic way that 
is going to be more applicable in the world that we are 
competing in today than where we were 50 years ago, which is 
unfortunately the classroom that they are sitting in.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Chairman Hall. With good questions. Thank you, sir.
    Now we recognize the gentleman from Arizona, Mr. Quayle. He 
is famous for one thing and that is that he is probably the 
youngest Chairman of a Subcommittee up here and his father is 
also famous for being the father of this youngest Chairman. I 
recognize Mr. Quayle for five minutes.
    Mr. Quayle. Thank you, Mr. Chairman.
    I want to kind of pose this to all of you, but I am from 
Phoenix, Arizona, and we have a really large and robust high-
tech sector. We have a lot of engineers and mathematicians and 
a lot of big companies that rely on engineers. And one of the 
things that they keep telling me, they say look, the quality of 
the engineers and people that are coming out are just as good 
as ever, but the quantity is just really low.
    And one of the other things is that how are we going to 
really capture the imagination of young people to stay involved 
within math and science and engineering--and as we look at the 
graying of the workforce in the high-tech sector, especially 
amongst engineers, I have spoken to a lot of them who have said 
look, ``I would really like to give back to my community and 
enter into the teaching profession.'' The only problem is it is 
very difficult to get in and actually teach because of the 
licensing and the certification programs, and we have had 
people who tried to and were actually rebuffed after 20 of 30 
years within the high-tech field. I think that we are losing 
out on some great practical experience, not just the fact that 
some of them have Ph.D.'s, but the practical applicability of 
math and science that could really look at kids saying hey, you 
know, if you take this algebra class and you take it seriously, 
if you take calculus and you take it seriously, these are the 
products that you get to make at the end of the day. So my 
question is, I know that licensing and certification is on the 
local level, the State and local level, and I want to keep it 
that way, but is there some way that we could have a flexible 
program, some sort of flexible accreditation that we could push 
and that we could really emphasize to make it easier for those 
that have the practical experience who want to get into the 
teaching profession, who want to give back to their community 
because that is giving back after they are retired. Do you 
think that that is feasible and do you think that there is a 
way to push that so that we don't lose out on all this 
knowledge that is just sitting on the sidelines that wants to 
engage those young people but it is really difficult for them 
to get involved? I ask it to all three of you.
    Mr. Norman. I will answer that briefly. I am not exactly 
sure how to make that type of certification happen but I will 
point back to that creating that, you know, community heroes we 
keep talking about, that mentorship so that kids want to become 
that. I think you are spot on by saying if we had that person 
from industry and could talk about what they did or what they 
accomplished in their career would obviously help push kids 
want to be that person rather than the basketball player or the 
football player. And we work with microchip very closely, too.
    Mr. Quayle. Okay, great.
    Mrs. Conrad. My response to you is the following. We have a 
very close community of mentors that work constantly with our 
young teams of entrepreneurs and innovators, and this is really 
a place where people like the folks you are talking about can 
drive an immediate, robust, amazing impact with young people, 
which may not be the classroom but it certainly has great ROI 
for what I call the gray birds, and when you really look at 
mentorship, it is a circle. These gray birds are learning just 
as much from these students as the students are learning from 
their mentors. So I encourage you to think about the vast array 
of amazing minds that can pay it forward through mentorship and 
especially active mentorship programs such as the one we have.
    Mr. Quayle. Before you answer, Mr. Gallagher, I think, Ms. 
Conrad, that one thing is that within the mentorship and within 
those programs, you have to have the kid, the child, the 
student to actively pursue that whereas if it is in the 
teaching, they are in the classroom, and you might be hitting a 
kid who might not have even thought about that subject matter 
and then they just get inspired and then they pursue it long 
term and they are actually the future, you know, creators of 
Intel going forward.
    Mrs. Conrad. No, I agree with you and I think one of the 
really tremendous things that we are doing within our program 
and in our competition is active mentorship. It is really 
robust and there is a lot of people from companies and 
government agencies that are in there all the time mentoring 
our young students. So it is a way, it may not be the way, and 
there is a program, I believe, that Sherry Lansing created that 
brings--Sherry Lansing was Paramount Pictures. She has created 
a program to actually bring retired engineers and such back 
into the classroom and to offer training to them to enter the 
classroom.
    Mr. Quayle. Okay. Great. Thank you.
    Mr. Gallagher?
    Mr. Gallagher. Thank you. Yes, three quick points. First, 
you are exactly right. The aspirational component of what our 
industry represents to kids mesmerizes them. You bring in a 
professional who actually has a very deep STEM education who is 
making video games, you put them in a classroom and the kids 
pay rapt attention. They are very focused on how do I be like 
you. And so those are types of flexibility we think is going to 
be necessary in the out years once we have these modules in 
place where the kids will then say all right, well, here is how 
I do it, now I have this lesson module that makes sense and 
these are more integrated as opposed to the separated nature 
that we have today.
    The second thing that I would add is that Quest to Learn is 
an experimental school. It was started in New York and now has 
opened a second facility in Chicago. The entirety of the 
curriculum is taught through video games through their design 
and then through their playing and execution, and to 
demonstrate again that this can work, and it is going to take 
very novel approaches to take today's teaching corps and be 
able to expose them to those types of methods.
    The third point that I would add is that that is being done 
in an aspirational manner by Sandra Day O'Connor, former 
Justice Sandra Day O'Connor, in partnership with Arizona State 
University. She has a game that she has developed called I 
Civics which was developed in 2009. There are now give games 
that teach kids civics through video games. So you can leverage 
all of these various pieces, put them together in a successful 
way.
    Mr. Quayle. Great. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Chairman Hall. The gentlelady from California, Ms. Lofgren, 
is recognized for five minutes.
    Ms. Lofgren. Well, thank you, Mr. Chairman, and thanks for 
this hearing. As always, sometimes the questions my colleagues 
ask, inspire as many questions in me as the witnesses 
themselves, and as I was listening to my colleague from 
Arizona, I was remembering William Shockley, who shared the 
Nobel Prize, coming and attempting to teach in my 9th-grade 
science class, and he was a brilliant scientist but he was a 
disaster as a 9th-grade science teacher. So I do think, 
however, that engineers and scientists have a role sometimes in 
the classroom and I do think that there needs to be flexible 
certification but certainly as mentors and helpers.
    And I have been, as I think most of us have been, to 
science extravaganzas. I know that Synopsys in particular in 
the valley has been very generous in funding science 
exhibitions. I remember I went to one this spring. It was, you 
know, 7:00 in the morning and it was East Side San Jose High 
School, so not the most advanced part of Silicon Valley, and it 
was thousands of kids who were just vibrating with excitement 
over the science fair, and I talked to one young man who was a 
junior who had done an experiment in nanotechnology carbon 
tubes and he had secured, with the assistance of a company, 
their electron microscope. I asked him, did it work? He said 
well, I don't know because the oven at the lab wouldn't get hot 
enough. So it is worth remembering that what we do in these 
wonderful events also relies on a properly funded school 
system. I mean, if you don't have a lab that works, it is not 
going to work.
    One of the things I am interested in--in the valley, if you 
can't measure it, it doesn't exist--so I am interested in how 
we measure the outcomes, and obviously, you know, to have a 
thousand kids vibrating about science is better than a lot of 
other things they could be doing even if there is not a flow 
into better grades or better careers. But our goal is to do 
better than diverting kids from mischief. It is to actually 
improve their education and to get them into a better spot.
    I just had a chance to read a report from the School of 
Education at the University of Pittsburgh indicating that in 
their analysis, the participation in robotics actually had no 
measurable positive impact in terms of academics. I don't know 
whether you all have the capacity--and this is my question, 
really--to connect up with the schools, be they charter, 
private or public, that are giving you your students to get the 
metrics measured both to see how they--and then also to fine-
tune what you are doing so that the excitement also translates 
to academic achievement.
    You know, I have seen kids at First Robotics, the big 
robotics in the valley where, you know, they are building 
something but they don't necessarily--they haven't learned 
anything about electrical engineering, they haven't learned 
anything about math. How do we collaborate with the wonderful 
work that you are doing with the actual academic world and how 
can there be feedback? What are the metrics and what would you 
need to make that happen?
    Mr. Norman. Well, I guess from my standpoint, once again, I 
am more on the for-profit side, and as an entrepreneur, I 
measure my results based on what I see and what I feel, and 
that makes me run really fast. Funny enough, the person behind 
me is a teacher from San Jose that is the president of the REC 
Foundation and that is kind of his job to figure out how to 
measure that. But what we do see is story after story after 
story of schools with a less than 50 percent graduation rate, 
once this program goes into place we have seen them go all the 
way up to 100 percent before.
    Ms. Lofgren. So attendance is--you can measure attendance 
and that is good. Time on material, that is a good thing. Is 
there any way to hook up like the test scores with the 
participants and get feedback from the academic world of what 
you are doing to fine-tune these--------
    Mr. Norman. I am sure there is. There is obviously a lot of 
privacy issues you deal with actually with kids and what you 
can and can't track. We had several brainstorming sessions of 
how to accomplish but that part of the issue of our success is 
we are growing at such a rapid rate, sometimes we are kind of 
the dog that caught the bus and it is, you know, resources.
    Mrs. Conrad. One of the things that we are teaching, so to 
speak, is design thinking skills, real out-of-the-box 
capabilities, a very difficult thing to measure at best. Having 
said that, that is just part of what we do so the design 
thinking skills are applied to product development, and as we 
see more products being developed and kids actually patenting 
and commercializing that product, there is a tremendous ROI not 
only to the students but to the world at large as these 
students solve these problems. As we grow and as we go and as 
we scale and measure more and more, I believe, like you, the 
juice factor is tremendous. Just getting kids excited to 
learn--------
    Ms. Lofgren. Oh, no, I don't disagree with that. Having the 
excitement is valuable even if it doesn't result in a single 
increase in test scores but I am wondering, can we do better?
    Mrs. Conrad. Well, excuse me, Congresswoman, but is test 
score everything? From the point of view of are we serving the 
student by just giving them a test to measure what they have 
learned and how do you measure design thinking.
    Ms. Lofgren. You know, it depends--I guess one of the 
questions is, what are the metrics you want to look at.
    Mrs. Conrad. Exactly.
    Ms. Lofgren. And, you know, I am running out of time so I 
don't want to cut Mr. Gallagher off, but I am very interested 
and I don't think it is something that the Congress can do, but 
to see whether collaborating, maybe we can even do this at home 
to see are there some metrics certainly in the math arena--that 
is highly measurable--where we could help and really track 
performance, understanding that individual students have 
privacy but when you have a group you can get a group outcome 
as well.
    Mrs. Conrad. I think that is a great idea.
    Ms. Lofgren. Thank you.
    Mr. Gallagher. Congresswoman, thank you for your leadership 
on so many issues in the technology sector, and in answer to 
your question, I would offer one example. On March 30th, we had 
an event here that was put on by the Atlantic, and it was 
purely focused on using video games in education and how do we 
that from end to end, from policy all the way through to 
practical results, and Connie Yao, who is a senior leader at 
the MacArthur Foundation, offered some thoughts along this line 
which I think are particularly valuable in answer to your 
question. She immediately states up front that she has no love 
for our industry, that she does not have a deep affection for 
technology. What she is motivated by is does what you are 
saying you are going to do work, period, and that is what she 
puts her effort behind, and her primary focus is exactly the 
focus of your question is assessment. She believes that 
currently we are not assessing students properly in the 
classroom, similar to Mrs. Conrad's thought, and that the video 
game environment provides instantaneous feedback. You know 
exactly how you are doing in that moment. It provides 
experimentation for learning to then occur and then there is a 
better learning process because the assessment is richer, 
deeper and produces a better student at the end of the day. I 
think that is what she would say if she was here. If I got it 
wrong, I know she will correct me.
    Ms. Lofgren. Good. Thank you very much, Mr. Chairman.
    Chairman Hall. The gentlelady yields back. The gentleman 
from Texas, Mr. Smith, is recognized for five minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Chairman, before I get to my questions for the 
panelists, I would like to mention that Mrs. Conrad in her 
discussion a while ago of mentoring reminded me of a personal 
experience, and I know I have mentioned it before but I think 
it has been a while, but it was one of the most satisfying 
experiences I have had in all my years with Congress even 
though it took place outside of the halls of Congress, and that 
is that a number of years ago I volunteered to tutor a student 
who might need help in the local school up here where I live in 
northern Virginia, and I was asked if I would tutor a young 
girl who was failing math, and I said well, I will certainly 
try. And this was a young girl who had all the stereotypes 
against her. She was from a broken family. Her mother didn't 
speak English very well. She lived in an apartment below a 
garage apartment that belonged to another family. And of 
course, there are sometimes the belief that girls don't like 
math. In any case, I, who didn't know what he was doing, tried 
my hand at tutoring for the very first time. At the end of the 
year, she ended up getting an ``O'' for outstanding in math and 
won a science award, and she is now in college and in fact was 
an intern in my office this summer. So it is nice to be able to 
have kept up with her over the years.
    But from that personal experience, I took or learned a 
couple lessons. One was the importance of tutoring, 
particularly tutoring by those who really know what they are 
doing and how much that can be helpful, just a little bit of an 
extra effort perhaps outside a class or after school. The other 
is, I think it is important to catch--to try to influence 
students before they ever get to high school. You have to 
really have an interest in science and math before that or you 
are not going to be likely to take algebra as a freshman or 
calculus as a senior or whatever it is these days that we 
encourage our STEM-type students to do.
    In the book--this is a stretch--in the book Boswell's Life 
of Samuel Johnson, Samuel Johnson is quoted as saying that much 
can be made of children if they are caught young enough, and I 
think that that is true when it comes to teaching them to enjoy 
the sciences or math or whatever it might be. You are welcome 
to comment on this, but as I say, what I took away from it is 
try to catch the children young, younger than high school, to 
provide mentoring and/or tutoring and you can really perhaps 
change some lives.
    Let me ask my question to all the panelists, and you are 
welcome to respond to my lessons as well as my question, which 
is a little bit different, and this, Mr. Gallagher, plays off 
of a sentence in your written testimony. You said that ``the 
current unemployment crisis is not simply a jobs problem, it is 
a skills problem,'' and I would like everyone to respond to 
that, but if you would start, Mr. Gallagher, I think that 
actually is connected to my experience which goes beyond jobs. 
It is teaching young people skills that they can use in jobs. 
And my understanding is that a lot of our companies today 
perhaps particularly the high-skill companies are not finding 
individuals with the skills that they need and unfortunately 
that goes back to what they might have learned or what they 
might have gotten excited about many, many, years ago. But Mr. 
Gallagher, if you will begin?
    Mr. Gallagher. Thank you very much for the question, 
Congressman, and I appreciate your highlighting that one 
sentence because it is very, very indicative of the reality 
that our industry faces. Currently, Microsoft has openings, you 
know, they are looking for over 4,000 engineers or computer 
science majors, and they are working very hard to fill those 
positions, very hard to find and fill those jobs.
    Mr. Smith. I wasn't here earlier but I am familiar with and 
I am sure they were discussed how few graduates we are 
producing here in this country compared to the number of 
foreign students who are coming over to take those jobs, too.
    Mr. Gallagher. That is a very significant contributing 
component to the gap. John Riccitello, who is the chief 
executive officer of Electronic Arts, will be here next week 
giving an address at the U.S. Chamber of Commerce, and he will 
be--one of the themes of his remarks will very likely focus on 
a passion of his, which is that we do have this skills gap 
where we have tremendous needs for highly compensated jobs. The 
average wage in my industry is over $90,000 a year. Those jobs 
are highly sought after and very aggressively sought by those 
that are motivated in the STEM arena. However, the rest of the 
economy, there is a severe disconnect because of the 
competitive nature of the world economy.
    Mr. Smith. Thank you.
    Mrs. Conrad?
    Mrs. Conrad. You know, I think it is unfortunate that we 
have diminished the skills that are out there in the workplace 
because I think if you kind of unwind the ball, at the core of 
that is that we don't have students who have a passion to 
learn. I call it the education Cuisinart where we put kids in 
there and we just stuff facts into their heads so that they can 
take a test instead of real-time assessment as they are going, 
education centered on the student rather than on a test so that 
there is continuous assessment, and if a kid is snagged up--and 
this is what Kahn Academy has done which is brilliant. If a kid 
is snagged up in algebra, they help him get past the snag so 
that they can move on, and that is really, I think, part of the 
thing that has impacted our system of education in such a very, 
very strong way that skilled workers, whether they are 
machinists or artisans or whatever they are, people aren't 
getting excited in the classroom anymore. It is not--as we 
talked about, Mr. Norman mentioned, yes, it is about fun but 
you have got to get the passion re-engaged in our young people 
so that we can increase the numbers and not sit around admiring 
our problem in education.
    Mr. Smith. Thank you, Mrs. Conrad.
    Mr. Norman, I also noticed you developed a curriculum in 
regard to the robotics competition and so forth, and I think 
that could be helpful, but if you want to respond real quickly, 
my time is up.
    Mr. Norman. I guess I have to hit the button first. There 
are several things that you mentioned. Recruiting is very, very 
important to all the workforce and that is why I think that 
companies that spend the money that they would normally spend 
in recruiting on a program such as this, they can help get that 
incentive for students to get involved in STEM and then also be 
ready for them when they come out.
    A quick thing about the international. We deal a lot with 
international growth, and you would be amazed at how the 
foreign countries, specifically China, has realized that what 
they are missing--they create a lot of engineers and a lot of 
book-smart people but what they have been missing all along is 
innovation so they are highly endorsing these types of programs 
that are mentioned here at this table to actually push that 
innovation and get that different thought process and we are 
working closely with the governments of Mexico, Malaysia, 
China, you would be amazed at the push they are doing to try to 
get that step.
    Mr. Smith. We need to equal or better the push that other 
countries are making, I think. Thank you.
    Thank you, Mr. Chairman.
    Chairman Hall. Thank you.
    The Chair recognizes Ms. Sewell, the gentlelady from 
Alabama.
    Ms. Sewell. Thank you, Mr. Chair, and I would like to thank 
all of our panelists for being here today and also to 
congratulate you on the success of your programs.
    I wanted to address the issue of access. I represent 
Birmingham, Alabama, but I also represent nine very rural 
communities in Alabama, and the reality is, that we don't have 
private companies that have technology at their fingertips to 
help partner with our public schools or with schools in general 
there, and so there needs to be, I think, a concerted effort if 
America is to get back to number one in the STEM education 
field to really address the access issue. The reality is that 
my old high school only has four microscopes for a classroom of 
30, so lack of resources and lack of access. And so I would 
like for each of you to address how you think we can get 
partners to see the value in developing the necessary 
infrastructure, if you will, to provide access to all of our 
children, not just those that are fortunate enough to live in 
Silicon Valley or California or places where there is a real 
community of science-related fields that can mentor them. What 
about rural America?
    Mr. Norman. I think from what we have seen, I mean, it kind 
of comes down to the chicken and the egg. Once the program has 
started and the community sees what is happening, there is a 
big influx of support within the community where companies are 
giving $200, $300, you know, very small--and even families 
pitching in on this program. So where I think it is important 
to have not just a huge investment program where it is 
extremely expensive, thousands of dollars to participate. You 
know, we try to be as scalable as we can, and when you talk 
with some of the programs that we are mentioning here, just 
getting some program started is the most important and then 
evolve to what you can get to.
    Mrs. Conrad. We had an experience in a rural environment in 
the Navajo Nation, and the teams came in about two years ago, 
one team, now it is like lots of teams, and because we are free 
and we are very user-friendly to all students, we are starting 
to grow a very big presence in terms of these sorts of 
communities. A third of our kids are inner-city kids. And my 
thinking is, it is not how smart are you, it is how much can 
you take what you know, stretch it and make something out of 
nothing and come into this group. The mentors come in through 
the communities where these children learn, and it is all 
starting to come together as a movement in innovation.
    Ms. Sewell. How can we promote more private companies to 
actually want to come to rural communities and partner with 
them?
    Mrs. Conrad. Well, the companies that we partner with 
partner across the board with us so we reach into the rural 
communities, the partners come with us.
    Ms. Sewell. How can we encourage you to come to Alabama?
    Mrs. Conrad. Just invite us.
    Ms. Sewell. You are invited.
    Mr. Gallagher. Congresswoman, first a general thought and 
then a specific act, a thing that we are focusing on in regard 
to bringing the promise to rural America. First, we all need to 
leverage what is within our reach to deliver the STEM promise 
to all of America including the rural areas and that is the 
consistent theme is what is within our reach. With the tools 
that we see, first of all, you have almost universal 
penetration of personal computers, or PCs. You also have video 
game consoles, current-generation consoles in 70 percent of 
American households right now so those two factors mean that 
the tools are present. You connect them with broadband, which 
they are very important policies that both Congress and the 
Administration are pursuing to increase broadband penetration, 
it is in the homes of all the families including in the most 
rural areas.
    Ms. Sewell. Oh, yeah, Mr. Gallagher, you are definitely in 
all the homes in the rural areas. GameBoys are everywhere and 
people do use that. But how are you leveraging that, and your 
association leveraging that very critical resource that you 
have at your fingertips because--and moving and trying to 
penetrate those rural communities and step up the game when it 
comes to science and technology?
    Mr. Gallagher. Well, there are two purposes of how that is 
done. One is driving the passion that Mrs. Conrad talks about, 
is to enlighten in these kids an excitement about a path. You 
motivate them and then they get over the hump on some of these 
STEM setbacks where it gets hard. That is one.
    The second one specifically is that ESA has a foundation. 
The foundation awards grants competitively. One of them is to 
Globaloria, and Globaloria is now a nationwide program but it 
started in rural West Virginia and it is focused on taking 
video games and teaching children 21st century skills through 
video games, and we have a very productive partnership in the 
grant that was done through Globaloria.
    Mr. Norman. I would like to add one last comment, if you 
don't mind. One of our partners, which I mentioned earlier in 
the testimony, the BEST program, Boosting Engineering, Science 
and Technology, they are actually a free program as well that 
gets people involved, and it is a good way to start out, and 
they are very active with Auburn University in your State.
    Ms. Sewell. Thank you.
    Chairman Hall. The gentlelady yields back. The Chair 
recognizes the gentlelady from Illinois, Mrs. Biggert, for five 
minutes.
    Mrs. Biggert. Thank you so much, Mr. Chairman, and thank 
you for holding this hearing today on STEM education, an issue 
that is very near and dear to my heart, and in addition to 
serving on the Science Committee, I also sit on the Education 
Committee where we are working to reauthorize the Elementary 
and Secondary Education Act, and as part of that effort I 
recently introduced a resolution, H.R. 378, and it is a 
bipartisan resolution expressing the sense of Congress that 
strong consideration be given to the role of science education 
in the educational accountability system in the next education 
reauthorization bill, and I introduced this because I believe 
that incorporating science and math in education is most 
critical and it is most critical now than ever. Recent studies 
showed that 21 percent of high school science departments have 
reported that the facilities presented a serious problem to 
science education and yet only eight percent of schools 
surveyed reported that there was a lack of student interest. 
And so that was a serious problem. So if we are to meet the 
future demands of the complex, diverse and competitive 
workforce, there is clearly a gap that we need to fulfill now.
    My first question kind of goes along with what Ms. Sewell 
was talking about except that I was wondering if any of you are 
partnering with the local, regional or State governments on 
STEM activities. Mr. Norman?
    Mr. Norman. Sure. Yes, we do, and in fact, one of the 
partners, which is Project Lead the Way that we are working 
very closely with, works directly with the State Board of 
Education and they actually from what I understand have a 
really close relationship there, and through that program we 
grow that program and other programs with it.
    Mrs. Biggert. Thank you.
    You know, we have got--within the Elementary and Secondary 
Act, grants are given only for the LEAs, those that are the 
teachers and the schools, and cannot be initiated by non-
government entities, like for example the Museum of Science and 
Industry in Chicago is very interested in working with the 
schools and having the grants so that they can go to the 
different schools. Would you think that the STEM education 
would benefit from having these kind of grants being given to, 
you know, educational groups instead of just the schools, Ms. 
Conrad?
    Mrs. Conrad. Yes. Actually, when we built our program, part 
of the way we reached out to grow scale is through partnerships 
with museums and science centers. They have tremendous 
opportunity to bring community in to teach and to transfer 
information outward, so yes, I think that is a capital idea.
    Mrs. Biggert. But it is making it very difficult without 
having the grants to be able to do that.
    Mrs. Conrad. Exactly, and it would be a tremendous effort 
if she can find a way to access that, not only into the museums 
and science centers but have that ability for the museums and 
science centers to work with folks like us, which we already 
do, and right now we have gotten to the place where we are now 
looking for some States and some groups of that nature that 
would work with us closely on that.
    Mrs. Biggert. Well, look to Illinois.
    Mrs. Conrad. I love your Museum of Science.
    Mrs. Biggert. And then secondly, Mr. Gallagher, I know that 
I didn't get to hear your testimony but I would welcome the 
feedback that you get and all of you the learning targets that 
have changed since the days of the Oregon Trail and Carmen San 
Diego, and I recognize the medium of games. I have nine 
grandchildren that are walking around with all these tools all 
the time and, you know, the desktop or the iPhone has expanded 
but has the complexity of potential skills expanded with that?
    Mr. Gallagher. Congresswoman, that is a very good question, 
and we believe that the more immersive environments that our 
technology creates are critical for learning, how to do your 
job in the 21st century. You need to juggle many different 
components. You have to make multiple calculations. You have to 
do them quickly. You have to do them dynamically and you have 
to do them in three dimensions. That is not just how it is done 
inside of a game, it is how it is done in a competitive 
workforce as well. So we believe that in the right hands the 
tools that we have as an industry can be used to catalyze those 
same thought processes amongst kids in a very productive way 
and we also believe, and I emphasized this at the outset, it 
can be done now. The improvements that need to be taken need to 
be done now, not after we lose another generation of students 
that are not going to be competitive in the world marketplace.
    Mrs. Biggert. Thank you. That is very interesting. Is there 
help for adults?
    Mr. Gallagher. Yes, there is.
    Mrs. Biggert. Thank you. I yield back.
    Chairman Hall. I thank the gentlelady. The round of 
questions are completed obviously, and I thank the witnesses. 
The book on witnesses is that we invite people who know much 
more about the subject than we do, and from that we arrange our 
bills and legislation that we will later debate. I say this, we 
have had good questions today. I think you have given very 
abundant, good answers and I think you have been a very unusual 
group and I thank you very much.
    The Members of the Committee might have additional 
questions for you, but I am going to quit talking. I am afraid 
some other Member is going to come in and want five minutes and 
it is right close to noon. But I thank all of you. We may ask 
you to respond to these questions in writing. They will do it 
within the next couple of weeks.
    The witnesses are excused and this hearing is, with my 
gratitude to all three of you and to those who back you up, we 
are adjourned.
    [Whereupon, at 12:02 p.m., the Committee was adjourned.]
                              Appendix I:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Mr. Tony Norman, President and CEO of
Innovation First International, Inc.

Questions submitted by Chairman Chairman Ralph M. Hall

Q1.  Understanding that we are in the midst of difficult economic times 
and with severely limited resources, what role should the Federal 
government play in STEM education?


A1. A lot of success can be accomplished through public / private 
partnerships at the corporate level. That being said, in addition to 
the current investments puts forth towards STEM Education, it would be 
beneficial to see the Federal government take action towards 
incentivizing school districts to adopt co-curricular robotics 
programs, and encourage teacher training programs that would fuel the 
awareness and integration of hands-on programs like VEX Robotics in 
classrooms across the nation. Any efforts the Federal government could 
take to identify industry mentors and innovation ambassadors that would 
communicate the benefits of programs like ours directly to their local 
constituents would be great. Lastly, the Federal government could take 
new measures to connect with America's large corporations and show them 
how their investment in programs like ours leads to workforce 
development.
    All of these suggestions would help ensure that the most hands-on 
STEM based programs that excite and motivate students to pursue STEM 
degrees in college and careers in STEM fields, become accessible to as 
many schools as possible, to as many students as possible, in as many 
cities and states as possible.

Q2.  What makes VEX Robotics different from other programs available 
today? What does it take to accelerate growth and reach more students 
with this program and what barriers do you face in achieving this 
accelerated growth?

A2. VEX Robotics is the only middle and high school robotics platform 
with significant penetration in both the daytime classroom instruction 
and extracurricular competitions. VEX Robotics was designed for 
education, architected for competition, and cost engineered for 
scalability. VEX attracts students that wouldn't have ordinarily had a 
previous interest in science and technology, and because it is 
affordable, VEX reaches underserved student populations and improves 
the diversity of those students interested in STEM.
    Most robotics programs that are offered today end at high school, 
are costly, and solely focused on after-school competition, and rely 
heavily on engineers from industry partners to volunteer their time. 
VEX Robotics addresses this issue by dramatically lowering the cost of 
participation for schools and students, by extending beyond high school 
through to college, and by involving higher participation and support 
from parents and teachers as mentors--because we want robotics to 
motivate students to go beyond high school--we want robotics to show 
students that they can all become top STEM professionals.
    To accelerate growth and reach more students with this program we 
need to get more corporations to invest and join forces with VEX 
Robotics, we need more teachers to become champions of robotics in the 
classroom which leads to more teacher training, and we need more school 
districts to encourage schools and teachers to adopt VEX in the 
classroom.
    Potential barriers that we face in achieving accelerated growth 
boils down to incentives, teacher / mentor training, school resources 
and credentials--all of which would help fuel both mentor and teacher 
involvement.

Q3.  You testify that your robotics competition is the only one that 
provides in-classroom training and out of classroom experiences. Please 
tell me more about the in-classroom experience. How are schools 
incorporating this into their curriculum? Is it offered as a separate 
elective or made part of another class?

A3. We testified that VEX Robotics Design System is the only platform 
that was designed specifically for classroom and extracurricular use. 
How schools incorporate VEX into the in-classroom experience varies on 
a case-by-case basis. At some schools you will find teachers 
incorporate VEX into their engineering, math, or science classes. Other 
schools will work to establish a separate robotics class using VEX 
hardware, creating their own curriculum, or utilizing one of our 
curriculum partners such as Autodesk, Intelitek and Carnegie Mellon 
University Robotics Academy. Other ways you will find VEX incorporated 
into the classroom is through some of our other partners and curriculum 
providers including Project Lead the Way, Technology Student 
Association or Da Vinci Minds. As you can see, there are various entry 
points for VEX entering into the classroom setting.

Q4.  VEX Robotics Competition is an international competition. What 
distinguishes American students from their international counterparts?

A4. Aside from technical language barriers, once students reach the 
stage of a VEX Robotics Competition--they all get a chance to operate 
on a level playing field. Certain teams will have a superior robot, 
others will be better strategists, some will be better on-the-spot 
problem solvers, and others will be better communicators. Other than 
that there truly aren't many major distinguishing characteristics 
between the American and the international students, expect for the age 
factor. Each year we see an increasing number of younger kids coming to 
compete from China and Australia as their governments have prioritized 
VEX in the classroom which in result has fueled their success and 
growth.
Responses by Mrs. Nancy Conrad, Chairman and Founder of the Conrad 
        Foundation

Questions submitted by Chairman Chairman Ralph M. Hall

Q1.  Understanding that we are in the midst of difficult economic times 
and with severely limited resources, what role should the Federal 
government play in STEM education?

A1. We believe it is vital for our nation's leaders to understand the 
imperative to educate and prepare our children to be at the forefront 
of STEM education, technology and industry. It is our opinion that 
establishing new federal policies is not the answer. Federal efforts 
should include thought leadership, allotting resources for research and 
providing funding to supplement activities undertaken by states and 
independent organizations focused on innovative and evidence-based STEM 
programming.
    In addition, special attention should be paid to the nation's STEM 
educators and to developing funding mechanisms to help supplement the 
out-of-pocket costs often incurred by these instructors.
    It would be beneficial to the STEM movement to have a database that 
served as a unified resource for jobs, internships, career preparation, 
grants and research funding specifically for the fields of science, 
technology, engineering and math.

Q2.  You testified that one third of your competitors are women, one 
third from underserved groups, and one third from students who enter 
multiple competitions. Is this by design, or is this just the way the 
applications came in? If by design, how are you reaching out to women 
and underserved populations? How do these individual groups do in the 
competition? Is the breakdown of winners similar?

A2. We put extra effort into nurturing relationships and creating 
Champion Partnerships with organizations capable of promoting our 
program to girls and underserved populations. Organizations such as the 
National Girls Collaborative Project and Girl Scouts of America make 
our program available as a resource to their communities. This year, 33 
percent of our participants are girls.
    Our program is available at no cost to all participants, making it 
a viable program for low socioeconomic student populations. To increase 
our reach to this underserved population, we developed relationships 
with school districts in Los Angeles, Philadelphia, Houston and San 
Francisco to specifically involve their larger communities of low-
socioeconomic populations in the program. In addition, several teams 
from the Navajo Nations have been active participants in our program. 
Many of these Navajo students are from very private communities, making 
their public participation in the program all the more significant.
    Last year's winning teams came from across the country and 
represented a broad spectrum of racial and economic diversity. While 
one-third of the total challenge participants were girls, they 
performed exceptionally well in the overall competition with 42 percent 
of the winning participants being girls. Of the five winning teams, two 
teams were comprised entirely of female team members.

Q3.  Who mentors the students on the business side of things? Who helps 
them with the patents and how many patents have been secured by 
competitors since the inception of the Spirit of Innovation Awards?

A3. We provide students with mentors from different professional 
membership societies, such as Sigma Xi, the American Institute of 
Aeronautics and Astronautics, and the American Society for Nutrition. 
Each year, their membership provides both technical and business 
expertise for the students. Our partners at NASA, Lockheed Martine and 
PepsiCo also encourage their workforce to interact with the students to 
provide their professional guidance and to share their STEM knowledge. 
We are often independently approached by other experienced 
entrepreneurs who offer their unique expertise to our students.
    The Conrad Foundation's Board of Directors offers a sub-committee 
called the Portal comprised of intellectual property lawyers and 
entrepreneurs who help selected teams file and secure patents of their 
own. At this time, three patents have resulted in this program.
Responses by Mr. Michael D. Gallagher, President and
CEO of Entertainment Software Association

Questions submitted by Chairman Chairman Ralph M. Hall

Q1.  Understanding that we are in the midst of difficult economic times 
and with severely limited resources, what role should the federal 
government play in STEM education?

A1. STEM education is key to rekindling America's global economic 
competitiveness, yet at present we face a critical STEM skills 
shortage. The United States must educate and develop its own talent 
supply for the 21st century ideas-based economy.
    However, due to the resource limitations referenced in the 
question, it is critical that each level of government fund and 
stimulate precisely those elements of STEM education spending within 
their core competence. As I underscored in my testimony at the hearing, 
the Federal government is particularly strong on the ``big 
infrastructure'' items like NASA, NIST, and other areas of large, 
national scope research. And, states and local governments are much 
more strongly enabled in the classrooms themselves, as well as the 
educational efforts that historically have been provided by state and 
local governments.

That said, the federal government can be effective in this regard in 
the following four ways:

       1.  The federal government should focus on having executive 
agencies collect assessment data and other evidence that focuses on the 
effectiveness (for whom, how, and under which conditions) of STEM 
education.

       2.  The federal government should encourage the adoption of 
technology in the classroom to ensure that student engagement on STEM 
education maps to 21st Century workforce skills such as systems 
thinking, critical analysis, problem solving, computational abilities, 
collaboration, and creativity. The single best way to achieve this 
objective is to capture the imagination of students on the ``big 
dreams'' of our time--similar to the space program of the 1960s and 
70s.

       3.  The federal government should concentrate on stimulating 
private sector innovation in STEM learning. The federal role in 
encouraging R&D is essential to sort out the conditions lll1der which 
STEM education will be most powerful, especially for underserved 
students.

          a.  For instance, federal agencies can incent public-private 
partnerships such as those supported by the Small Business Innovative 
Research (SBIR) grant competitions that are already lll1derway. These 
competitions can create enticement for small companies to develop 
digital games, mobile applications and other technology enabled 
innovation to support STEM learning. In some cases, federal funding in 
these areas could be tied to relaxing state regulatory requirements for 
teaching certificates for professionals with proven expertise in areas 
both interesting to students and valuable to our country.

       4.  Finally, coordinating national funding priorities for STEM 
across agencies should not be overlooked by the federal government. 
Education is not just K-12; it extends to professional development, job 
skill training, and career retooling. With this in mind, millions of 
dollars are being spent by agencies on direct training and human 
capital development programs at the U.S. Department of Education, SBA, 
NASA, and the Department of Defense that could be coherently 
prioritized and coordinated for the benefit of students, teachers, and 
product designers.

Q2.  What do we know about how students and the general public learn 
from digital learning environment? What don't we know? How can we 
effectively evaluate this type of learning environment?

A2. There have been numerous recent analyses and planning reports on 
the use of digital learning to advance national educational and 
technology infrastructure priorities. In recent years, there have been 
four federally supported analyses:

       1.  The National Education Technology Plan issued by the U.S. 
Department of Education in 2010 concluded that our schools are in 
fundamental need of modernization--from new technology infrastructure 
to a complete ``re-conceptualization of professional development,'' 
which relies far more heavily on networked communications technologies.

          a.  A prime example of this modernization is Quest to Learn, 
a New York City public school grounded in principles of game design, 
the first of its kind. The New York Times recently described the 
philosophy of Quest to Learn and Katie Salen, its founder, ``at its 
best, game design can be an interdisciplinary exercise involving math, 
writing, art, computer programming, deductive reasoning and critical 
thinking skills.'' (http://wvvw.nytimes.coml20 1 0/09119/magazine/ 
19video-t.html)

       2.  The role of games and simulations in science education was 
the subject of an independent scholarly review by the National Academy 
of Sciences in 2010. The NAS found promising evidence that digital 
simulations can significantly advance children's science learning. 
(http://ebookee.orgfLeaming-Science-Through-Computer-Games-
andSimulations1223289.html)

       3.  A review of educational technology-enabled curriculum 
programs issued in 2009 by the GAO for the U.S. Department of Education 
found only limited evidence that a randomized control design of student 
learning on standardized measurements was advanced by technology-
oriented curricula. (http://www2.ed.gov /aboutl officesllistl opepd/
ppss/reports.html#edtech)

       4.  An independent review of evidence and a research plan by the 
National Science Foundation on cyberlearning in 2008 (http://
www.nsf.gov/pubsI2008/nsf08204/index.isp) found digital advances have 
the potential to transform STEM learning in the decade ahead. The 
research states, ``Cyberlearning offers new learning and educational 
approaches and the possibility of redistributing learning experiences 
over time and space, beyond the classroom and throughout a lifetime.'' 
However, without deliberate efforts to coordinate cyberlearning 
approaches, we will miss the opportunity to provide effective support 
for the convergence of learning and technology.

    Taken together, these reports indicate the promise of digital tools 
and new approaches to embedding digital learning in U.S. classrooms has 
not yet been fulfilled, and that further experimentation is an urgent 
national priority. The federal government (both Congress and the 
Executive Branch) should help raise the profile and importance of the 
21 st Century cluster of skills outlined above. This emphasis would 
help drive research dollars, new modes of assessment, and public-
private partnerships toward more innovative products and services in 
digital learning.

                                   

</pre></body></html>
